App. 1
J-A28012-18
NON-PRECEDENTIAL DECISION – SEE
SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH
OF PENNSYLVANIA,

:
:
:
v.
:
LUCAS ALLEN NEWNAM, :
:
Appellant.

IN THE SUPERIOR
COURT OF
PENNSYLVANIA

No. 1504 MDA 2017

Appeal from the Judgment of Sentence
August 9, 2017, in the Court of Common Pleas
of Lancaster County Criminal Division at
No(s). CP-36-CR-0003420-2016.
BEFORE: LAZARUS, J., OLSON, J., and MUSMANNO, J.
MEMORANDUM BY LAZARUS, J.
FILED JANUARY 25, 2019
Lucas Allen Newnam appeals from his judgment
of sentence, entered in the Court of Common Pleas of
Lancaster County, following his conviction of firstdegree murder.1 Newnam was sentenced to life imprisonment, without the possibility of parole. After careful
review, we affirm.
On May 27, 2016, Newnam fatally shot Julius
Dale, III, at Newnam’s residence located at 304 Creek

1

18 Pa.C.S.A. § 2502(a).

App. 2
Road, Sadsbury Township, in Lancaster County. We refer to pages 2-11 of the attached trial court opinion,
dated December 20, 2017, for a recitation of the relevant trial testimony and factual background of the
case.
Following a five-day jury trial, first-degree murder
conviction, and sentencing, Newnam filed timely postsentence motions alleging the verdict was against the
weight of the evidence and that the Commonwealth
provided insufficient evidence to disprove his defense
of justification. The court denied the motion and, on
September 20, 2017, Newnam filed the instant, timely
notice of appeal. After being granted an extension by
the trial court, Newnam filed a timely Pa.R.A.P.
1925(b) concise statement of errors complained of on
appeal.
On appeal, Newnam raises the following issues for
our consideration:
(1) Did the trial court commit reversible error by denying [Newnam’s] request to
have newly[-]retained counsel of his choice
assume his defense of his pending murder
trial and afford counsel a brief continuance to prepare, where [Newnam’s] original attorney abruptly withdrew from his
case for medical reasons and the court appointed new counsel to [Newnam’s]
case[?]
(2) Did the trial court err when it allowed the
Commonwealth to introduce [Newnam’s]
intercepted prison visit conversations, in

App. 3
the absence of explicit consent by both
parties or judicial authorization, in violation of the Wiretap Act, 18 Pa.C.S. [§]
5701, et se[q]., and Commonwealth v.
Fant[, 146 A.3d 1254 (Pa. 2016)?]
(3) Did the trial court err when it refused to
suppress [Newnam’s] statements during
a custodial interrogation when the state
police troopers failed to properly inform
him of the nature of the investigation
prior to advising [Newnam] of his Miranda2 rights[?]
(4) Did the trial court err by refusing to
charge the jury pursuant to [Newnam’s]
requested castle doctrine instruction
when [Newnam] testified, as well as put
on witnesses buttressing his claim of selfdefense and the decedent’s stated intent
to kill [Newnam?]3
Appellant’s Brief, at 7-9.

2

Miranda v. Arizona, 384 U.S. 436 (1966).
The Commonwealth has presented our Court with a postsubmission communication, attaching a recent decision, Commonwealth v. Cannavo, 3729 EDA 2017 (Pa. Super. filed Dec.
3, 2018), that addresses the castle doctrine and 18 Pa.C.S. § 505.
The Commonwealth asserts that Cannavo is relevant to our
analysis of Newnam’s last issue on appeal. See Pa.R.A.P. 2501
(after argument of case, no brief, memorandum or letter relating
to case shall be presented either directly or indirectly to court or
any judge, except upon application or when expressly permitted
to bar at time of argument) (emphasis added). We accept the submission pursuant to Rule 2501.
3

App. 4
In his first issue on appeal, Newnam contends that
the trial court improperly denied his request to have
newly-retained, private counsel appointed and permit
counsel to have a brief continuance to prepare his case.
He asserts the denial was an abuse of discretion where
Newnam’s original attorney withdrew from his case for
medical reasons and the court appointed new counsel
for him, depriving him of his right to choose counsel.
It is a fundamental principle that a defendant has
a constitutional right to choose any lawyer he may desire, at his own cost and expense. Commonwealth v.
Rucker, 761 A.2d 541 (Pa. 2000); Pennsylvania Constitution, Art. I, § 9; U.S. Constitution, Amend. V. Cf.
Commonwealth v. Moore, 633 A.2d 1119, 1125 (Pa.
1993) (citing Commonwealth v. Johnson, 236 A.2d
805, 807 (Pa. 1968) (defendant who is not employing
counsel at own expense and seeks court-appointed
counsel, at public expense, does not have right to
choose particular counsel to represent him)). In Commonwealth v. Robinson, 364 A.2d 665, 674 (Pa.
1976), our Supreme Court noted:
Due process demands that the defendant be
afforded a fair opportunity to obtain the assistance of counsel of his own choice to prepare
and conduct his defense; the constitutional
mandate is satisfied so long as the accused is
afforded a fair or reasonable opportunity to
obtain particular counsel, provided there is no
arbitrary action prohibiting the effective use
of such counsel.
Id. at 674 (citations omitted).

App. 5
However, a person’s right to be represented by the
counsel of his choice is not absolute. “[T]he right of the
accused to choose his own counsel, as well as a lawyer’s
right to choose his clients, must be weighed against
and may reasonably be restricted by ‘the state’s interest in the swift and efficient administration of criminal
justice.’ ” Id. at 676. Effectively, a defendant cannot
“utilize his right to choose his own counsel so as unreasonably to clog the machinery of justice and hamper
and delay the state in its efforts to do justice with regard to both him and to others whose right to a speedy
trial may thereby be affected.” Id. (citations omitted)
(emphasis in original).
The matter of continuance is traditionally
within the discretion of the trial judge, and it
is not every denial of a request for more time
that violates due process even if the party
fails to offer evidence or is compelled to defend
without counsel. Contrariwise, a myopic insistence upon expeditiousness in the face of a
justifiable request for delay can render the
right to defend with counsel an empty formality. There are no mechanical tests for deciding
when a denial of a continuance is so arbitrary
as to violate due process. The answer must be
found in the circumstances present in every
case, particularly in the reasons presented to
the trial judge at the time the request is denied.
Id. at 675 (emphasis added). Moreover, in Commonwealth v. Brooks, 104 A.3d 466 (Pa. 2014), our Supreme Court noted that:

App. 6
[a]ppellate review of a trial court’s continuance decision is deferential. The grant or denial of a motion for a continuance is within the
sound discretion of the trial court and will be
reversed only upon a showing of an abuse of
discretion. An abuse of discretion is not
merely an error of judgment. Rather, discretion is abused when the law is overridden or
misapplied, or the judgment exercised is manifestly unreasonable, or the result of partiality, prejudice, bias, or ill-will, as shown by the
evidence or the record.
Id. at 469.4 Our federal courts have recognized that a
defendant must be “given a reasonable time and a fair
opportunity to secure counsel of his [or her] own choice,
Chandler v. Fretag, 348 U.S. 3, 10, (1954), that this
right cannot be insisted upon in a manner that will obstruct a reasonably prompt trial, Releford v. United
States, 288 F.2d 298, 301 (9th Cir., 1961), and that [a
defendant cannot be] deprived of his [or her] constitutional right to have assistance of counsel at his [or her]
trial. In United States ex rel. Puntari v. Maroney,
220 F. Supp. 801, 805 (W.D. Pa. 1963), the United
States District Court for the Western District of Pennsylvania, held that “[a]n accused without [ ] sufficient
funds who failed to engage counsel of choice within a
70-day period prior to trial must rely on court4

We note that pursuant to Pa.R.Crim.P. 106, “a court may
grant a continuance ‘in the interests of justice.’ ” Pa.R.Crim.P.
106(A). In addition, “[a] motion for continuance on behalf of the
defendant shall be made not later than 48 hours before the time
set for the proceeding.” Id. at 106(D).

App. 7
appointed counsel if he desires an advocate. He does
not have the right to tell the court whom to appoint,
the choice is that of the court. Id. at 805.
Here, Newnam’s original trial counsel, Randall
Miller, Esquire, who was court-appointed on July 28,
2016, and was fully prepared to go to trial, had to withdraw from the case just ten days shy of trial, in April
2017, due to medical reasons. On April 27, 2017, the
court quickly appointed new counsel for Newnam, Edwin Pfursich, Esquire, who requested a two- or threemonth continuance to properly prepare a defense for
trial. The court granted the unopposed motion for a 60day continuance and trial was rescheduled for July 29,
2017. During the following two months, Newnam became increasingly dissatisfied with Attorney Pfursich’s
representation. As a result, he retained new, private
counsel, Michael V. Marinaro, Esquire, on July 19, 2017
– just ten days before his scheduled trial.
On July 20, 2017, the court held a hearing on
Newnam’s change of counsel and intended request for
an additional two- to three-month continuance. The
court noted at the hearing that the court’s continuance
decision would be based on the following facts: the case
had already been continued one time; that continuance
was on the defense because of the appointment of new
counsel; the continuance was for two months; the case
was now 14 months old; Newnam had more than one
year to secure private counsel; Newnam secured private counsel only eight days before the rescheduled
trial start date; Newnam had been in court on several
occasions over the prior nine months and never

App. 8
indicated that he intended to hire private counsel or
that he was dissatisfied in any way with Attorney Pfursich; and that the Commonwealth has already subpoenaed and met with witnesses for trial. N.T. Hearing,
7/20/17, at 3-6.
Current counsel, Attorney Pfursich, testified at
the hearing that while he and his client disagreed over
trial strategies, Newnam never personally indicated to
him that he wanted to hire private counsel. He did
state, however, that Newnam’s family mentioned on a
number of occasions that they were dissatisfied and
were seeking to hire Newnam new counsel. Attorney
Pfursich also told the court that he was prepared to go
to trial at the end of July, that he did not believe that
Newnam was hiring new counsel as a delay tactic, that
Newnam had no reason to hire private counsel during
the first year that the case was pending because he was
satisfied with Attorney Miller, and that from experience he knew it required substantial effort to interview
new attorneys and secure funding for private counsel
in a murder case. Id. 10-14. The court also noted that
if it did continue the case, it would not be able to reschedule trial before October, approximately 17
months after the criminal complaint was filed. Id. at 5.
Newnam’s intended private counsel, Attorney
Marinaro, indicated that without a continuance there
was “no possible way that [he could] get up to speed at
this point to be an effective attorney for [Newnam]”
and would need two to three months to prepare for
trial. Id. at 10-11.

App. 9
Our Courts have repeatedly stated that upon review of the denial of a continuance motion, “we are to
give attention to the ‘reasons presented to the trial
judge at the time the request is denied.’ ” Commonwealth v. Wolfe, 447 A.2d 305, 308 (Pa. Super. 1982).
Instantly, Newnam testified that he waited so long to
hire private counsel after Pfursich was hired because
he “didn’t have the funds.” Id. at 17. Newnam also testified that he did not speak up sooner and express his
dissatisfaction with Attorney Pfursich at prior hearings because he was afraid he would be held in contempt of court for speaking out of turn. Id. at 18. He
also indicated that counsel had not given him access to
a witness statement and that counsel “didn’t seem as
enthusiastic about defending [his] case as [he] thought
counsel should be.” Id. at 22-23.
Finally, the assistant district attorney testified
that he had no way of knowing if the Commonwealth’s
witnesses would be available if the trial were continued until October, id. at 36, the Commonwealth would
not suffer any substantial prejudice if trial were continued, id. at 37, and it was not opposed to a continuance as long as Attorney Pfursich did not leave the case.
Id. at 38.
In Commonwealth v. Prysock, 972 A.2d 539
(Pa. Super. 2009), our Court set forth the following
factors to consider on appeal from a trial court’s ruling
on a continuance motion to obtain private representation: (1) whether the court conducted “an ‘extensive inquiry’ into the underlying defendant’s dissatisfaction
with current counsel;” (2) whether the defendant’s

App. 10
dissatisfaction with counsel amounted to “irreconcilable differences;” (3) “the number of prior continuances;”
(4) “the timing of the motion” for continuance; (5)
“whether private counsel had actually been retained;”
and (6) the readiness of private counsel to proceed in a
reasonable amount of time. Id. at 543.
Here the trial court conducted a thorough inquiry
regarding why Newnam was dissatisfied with Attorney Pfursich; the court did not believe that Newnam’s
dissatisfaction constituted “irreconcilable differences;”
a continuance was being sought one week before scheduled trial; private counsel had already been retained;
new counsel was not immediately ready to proceed, but
would need two to three additional months to prepare
for trial. Prysock, supra. The court ultimately concluded that “[Newnam’s] right to counsel of his choice
was not exercised in a reasonable time and manner
when weighed against the public need for the efficient
and effective administration of justice.” See Trial
Court Opinion and Order, 7/21/17. Consequently, counsel’s motion to withdraw was denied because granting
it would have required a trial continuance. Id.
A comprehensive review of the record indicates
that the trial court properly weighed Newnam’s right
to counsel of his choice against the state’s interest in
the efficient administration of justice. In Commonwealth v. Harding, 369 A.2d 429 (Pa. Super. 1959) (en
banc), our Court noted that “[i]t is necessary to balance
the desirability of permitting a defendant additional
time to retain private counsel against the equally desirable need for efficient and effective administration

App. 11
of justice. The accused’s right to select his own counsel
cannot be exercised in a manner that will obstruct an
orderly procedure in courts of justice, and deprive such
courts of the exercise of their inherent powers to control the same.” Id. at 430.
Here, the court did not deny the appointment of
private counsel, so much as it did not sanction a two to
three month delay in bringing the case to trial. In fact,
the court was willing to permit Attorney Marinaro to
represent Newnam, so long as he was ready to go to
trial on the scheduled date. Admittedly, this is a close
case. We do not find that Newnam was intentionally
trying to delay trial in bad faith, Commonwealth v.
Ross, 350 A.2d 836 (Pa. 1976), or that he unreasonably
clogged the machinery of justice by his request. Robinson, supra, at 674. However, we cannot conclude
that the court’s denial of Newnam’s requires rises to
the level of a deprivation of due process or an abuse of
the trial court’s discretion. See Brooks, supra (defining abuse of discretion as “a manifestly unreasonable
judgment, a result of prejudice, bias or ill-will, or a misapplication of law.”).5
The Commonwealth’s acquiescence to a continuance was equivocal where the assistant district attorney first stated that he “certainly would not be opposed
5

We remind the trial court that in future cases it must be
sure to take all factors into consideration when ruling on a defendant’s request to secure private counsel, including the gravity
of the offenses lodged against the defendant, his reasons for securing new counsel and the reason why any prior continuances
were granted for the defense.

App. 12
to a continuance . . . if Mr. Marinaro [were] granted
permission to enter[,]” N.T. Hearing, 7/20/17, at 37, and
then, only moments later, stated that if having Mr.
Pfursich leave the case would result in a continuance,
he would be opposed to having him leave the case. Id.
at 38. Moreover, the Commonwealth did not definitively state that it would not be prejudiced where the
assistant district attorney stated at the hearing that
he could not “speak [as] to how successful [it would] be
at staying in contact with [the witnesses] between
[then and the rescheduled trial date in the fall]” and
qualified this statement with the fact that many of the
witnesses “do not have steady addresses or steady
phone numbers” and “getting them to stay . . . in touch
with [the Commonwealth] can be a bit of a challenge.”
Id. at 37. Accordingly, we affirm the trial court’s decision to deny Newnam’s continuance.
In his next issue on appeal, Newnam contends
that the trial court erred when it denied his motion6 in
limine and permitted the Commonwealth to introduce
several non-contact, intercepted prison visit conversations without first obtaining explicit consent by both
parties or judicial authorization, in violation of the Wiretap Act (“the Act”), specifically 18 Pa.C.S. § 5704(14). We
disagree.

6

On May 5, 2017, Newnam filed a motion in limine to preclude the Commonwealth from admitting “visit conversations inside Lancaster Prison” as a violation of the Wiretap Act. We
equate this motion to, and treat it as, a motion to suppress the
conversations.

App. 13
Because Newnam was on non-contact status while
incarcerated and awaiting trial on the instant homicide charge, all of his visits took place in the noncontact visitation room where he sat face-to-face with
his visitors, on opposite sides of a pane of glass, and
talked to them through telephone-style handsets. All
of these non-contact conversations were recorded; bilingual signage on both sides of the glass pane notified
inmates and visitors of the fact that their conversations may be recorded. Further, when Newnam and his
visitors picked up the handsets, an audio recording informed them that, “This call is subject to recording and
monitoring.”
When reviewing a grant of a suppression motion, the appropriate scope and standard of review are as follows:
[W]here a motion to suppress has been
filed, the burden is on the Commonwealth
to establish by a preponderance of the evidence that the challenged evidence is admissible. In reviewing the ruling of a
suppression court, our task is to determine whether the factual findings are
supported by the record. If so, we are
bound by those findings. Where, as here,
it is the Commonwealth who is appealing
the decision of the suppression court, we
must consider only the evidence of the defendant’s witnesses and so much of the
evidence for the prosecution as read in
the context of the record as a whole remains uncontradicted.

App. 14
Moreover, if the evidence supports the
factual findings of the suppression court,
this Court will reverse only if there is an
error in the legal conclusions drawn from
those findings.
Commonwealth v. Burgos, 64 A.3d 641, 647 (Pa. Super. 2013) (quotation omitted). Moreover, interpreting
the language of Pennsylvania’s Wiretap Act is a pure
question of law and, thus, demands a de novo standard
of review. Commonwealth v. Deck, 954 A.2d 603, 606
(Pa. Super. 2008).
Pennsylvania’s Wiretapping and Electronic Surveillance Control Act generally prohibits intercepting,
using, or disclosing communications except those according to specified procedures. See 18 Pa.C.S. § 5703,
et. seq. The Act is designed to safeguard individual privacy, while also giving law enforcement authorities a
tool to combat crime. Consistent with the Act’s emphasis on privacy, its provisions are to be strictly construed. Section 5704 of the Act provides, among others,
two relevant exceptions to the general prohibition on
intercepting communications. One exception, memorialized in section 5704(4) of the Act, does not make it
unlawful and requires no prior court approval for the
interception of communications “where all parties to
the communication have given prior consent to such
interception.” 18 Pa.C.S. § 5704(4). The other relevant
exception allows employees of county correctional facilities to “intercept, record, monitor and or divulge any

App. 15
telephone calls7 from or to an inmate in a facility” so
long as inmates are notified in writing that their telephone conversations “may be intercepted, recorded,
monitored or divulged” and that after the interception
or recording only designated official personnel may have
access to that recording. See 18 Pa.C.S. § 5704(14)(i).
Moreover, under section 5704(14)(iii), “[p]ersons who
are calling into a facility to speak to an inmate shall
be notified that the call may be recorded or monitored.”
18 Pa.C.S.A. § 5704(14)(iii) (emphasis in original). Use
of the word “into” in section 5704(14)(iii) contemplates
a call originating outside the prison. Fant, 146 A.3d at
1262.
In Fant, the Pennsylvania Supreme Court defined
the term “telephone call” under the Act as a communication that: (1) involves the dialing of a telephone number[;] (2) involves an apparatus that is connected by
wire or the like to a telephone company[; and] (3) permits a caller to converse with a call recipient whose
similar apparatus is associated with the dialed
7

In 2017, section 5704 was amended, effective on September
5, 2017 – exactly one month after Newnam’s trial concluded and
he was sentenced. The relevant 2017 amendment to section
5704(14) substituted “oral communication, electronic communication or wire communication for “telephone calls.” More specifically, section 5704(14)(iii) now provides:
(iii) Persons who are engaging in an oral communication, electronic communication or wire communication
with an inmate shall be notified that the communication may be recorded or monitored. Notice may be provided by any means reasonably designed to inform the
non-inmate party of the recording or monitoring.
18 Pa.C.S. § 5704(14)(iii).

App. 16
telephone number.” Id. at 1263. In Fant, where the
subject communications did not go through a telephone company, telephone company lines, or equipment outside the prison, only a personal ID number
(not a telephone number) was used to activate the visit
conversation, and the recordings of the visit conversations were saved to a prison computer server, the subject conversations were not subject to the county
correctional facility “telephone” exception of the Act.
Id. at 1265. Similarly, here the subject conversations
did not go through a telephone company, telephone
company lines, or equipment outside the prison, and
only a personal ID was used to activate the conversation. Thus, the Act’s section 5704(14)(iii) exception is
not applicable to the instant matter.
However, our Court has held that any expectation
of privacy that an inmate has in a conversation taking
place in a prison visitation room, when separated from
the visitor by a glass partition and speaking with the
visitor through a closed-circuit telephone system, is
unreasonable. See Commonwealth v. Prisk, 13 A.3d
526, 532 (Pa. Super. 2011) (unreasonable for inmate to
expect privacy in conversations that take place in
prison visitation room; such expectation of privacy is
not one society is prepared to recognize). Moreover,
Robert Barley, an inmate disciplinary coordinator and
investigative assistant at Lancaster County Prison
where Newnam was housed at the time of the recorded
conversations, testified that in the no-contact area

App. 17
there are “several phones8 on one side of the glass,
along with several phones on the other side of the glass
[and] right above the phone[s] is a [sign] that talks
about the inmate’s phones may be recorded, monitored
or divulge[d].” N.T. Hearing, 5/5/17, at 4-5. The signs
are written in English and Spanish and are located on
both sides of the glass partition above the phones. Id.
at 5. Moreover, after the inmate enters his or her
passcode on the phone, a recording audibly informs the
listeners that the calls may be intercepted, monitored,
or divulged at any time. Id. at 9.
We find that the phone calls admitted at trial fall
within the Act’s section 5704(4) exception, where both
Newnam and visitors were given written and aural notice that their communications may be recorded. Commonwealth v. Byrd, 185 A.3d 1015 (Pa. Super. 2018)
(two-party consent exception to Wiretap Act applied to
inmate-visitor conversations where, before inmate and
visitor could converse, recording stating visit may be
recorded or monitored was played, visitor acknowledged that she heard prerecorded message and still decided to speak with inmate; Court found hypertechnical analysis of “consent” under section 5704(4)
unreasonable). To require more evidence of “explicit”
consent, as is suggested by Newnam, would elevate
form over substance and give “inmate[s] [the opportunity to] easily avoid the consent element by simply
8

A separate, independent phone is used for attorney conversations with inmates. No conversations, which are considered
privileged attorney-client communications, are recorded on those
phones. Id. at 7-8.

App. 18
holding the phone away from [their] ear[s] for a period
of time prior to speaking with a visitor” or by stating
that they did not read the posted signs. Id. at 1022.
In his next claim, Newnam argues that the trial
court erred when it refused to suppress his statements
made during a custodial interrogation, when the state
police troopers failed to properly inform him of the nature of the investigation prior to advising Newnam of
his Miranda rights.
After a review of the record, relevant case law and
the parties’ briefs, we rely on the trial court’s Rule
1925(a) opinion to conclude that Newnam effectuated
a valid waiver and was not improperly subjected to a
custodial interrogation. See Rule 1925(a) Trial Court
Opinion, 12/20/17, at 30-35. Here, the officers clearly
told Newnam the direction and purpose of their questioning after they advised him of his Miranda rights
but, critically, before they began their interrogation.
Moreover, Newnam was apprehended in close proximity to the shooting scene and the questioning took place
less than one day after the murder. See Commonwealth v. Green, 683 A.2d 659 (Pa. Super. 1996) (no
requirement that suspect have knowledge of specific
crimes about which he or she is to be questioned);
Commonwealth v. Travaglia, 467 A.2d 288 (Pa.
1983) (fact that interrogation follows hard upon criminal episode and there is no circumstance lending ambiguity to direction and purpose of questioning may
suffice as necessary evidence that defendant knew of
occasion for interrogation).

App. 19
In his final claim on appeal, Newnam contends
that the trial court erred by refusing to charge the jury
on the “castle doctrine” when Newnam testified and
presented supporting witnesses to buttress his claim
of self-defense and the decedent’s stated intent to kill
him. In essence, he alleges that he had a reasonable
belief that the use of deadly force was immediately necessary to protect himself from the victim inflicting serious bodily injury or death upon him. Again, we rely
upon the trial court opinion to dispose of this issue on
appeal. See Rule 1925(a) Opinion, 12/20/17, at 35-40.
Our standard of review in regard to a trial court’s
decisions on jury instructions is well-settled. “[W]hen
considering the denial of jury instructions[,] . . . an appellate court will reverse a court’s decision only when
it abused its discretion or committed an error of law.”
Commonwealth v. Galvin, 985 A.2d 783, 788-89 (Pa.
2009). “[Our] key inquiry is whether the instruction on
a particular issue adequately, accurately and clearly
presents the law to the jury, and is sufficient to guide
the jury in its deliberations.” Commonwealth v.
Hamilton, 766 A.2d 874, 878 (Pa. Super. 2001).
The castle doctrine “is an evidentiary means by
which a defendant may attempt to prove justification
by self-defense.” Commonwealth v. Cannavo, 2018
PA Super. 327 (Pa. Super. filed Dec. 3, 2018). Specifically, it “is a specialized component of self-defense,
which recognizes that a person has no duty to retreat
from his or her home before using deadly force as a
means of self-defense.” Commonwealth v. Childs,

App. 20
142 A.3d 823, 824 n.1 (Pa. 2016) (citations omitted).9
Standards for permitting a castle doctrine instruction
are the same as when reviewing whether a self-defense
instruction is appropriate. Thus, a “valid claim of . . .
the castle doctrine must be made out as a matter of
law, and this determination must be made by the trial
judge.” Id. at *6. In essence, the court must determine
whether there was any evidence to justify the instruction.
Here, there was no evidence to support a finding
that the victim unlawfully or forcefully entered
Newnam’s residence. Moreover, ample evidence existed to prove that Newnam’s residence was being used
for illegal drug trafficking. Both of these facts negate
the applicability of the castle doctrine. See 18 Pa.C.S.
§§ 505(b)(2.1)(i), 505(b)(2.2)(iii). Thus, the court did not
err in failing to give a castle doctrine instruction.

9

The Castle Doctrine, originally a common law doctrine, was
codified in Pennsylvania in 1972 with the enactment of 18 Pa.C.S.
§ 505. In June 2011, the legislature passed Act 10, which did not
substantively alter the law regarding the use of deadly force
within one’s residence. Both the former and current section
505(b)(2)(ii) provide that a person may use deadly force if he or
she believes that it is necessary to prevent death, serious bodily
injury, kidnapping, or sexual intercourse compelled by force or
threat, and that there is no duty to retreat from the person’s
dwelling or place of work unless that person is the initial aggressor or is assailed by a person who also works in the same place.
Childs, supra at 829-30.

App. 21
Judgment of sentence affirmed.
Judgment Entered.
/s/ Joseph D. Seletyn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 01/25/2019

App. 22
IN THE COURT OF COMMON PLEAS
OF LANCASTER COUNTY, PENNSYLVANIA
CRIMINAL
COMMONWEALTH
OF PENNSYLVANIA

: 1504 MDA 2017
:
: CP-36-CR-0003420-2016
v.
:
LUCAS ALLEN NEWNAM :
PA R.A.P. 1925 OPINION
(Filed Dec. 20, 2017)
BY TOTARO, J.
On July 31, 2017, Lucas Allen Newnam (“Appellant”) appeared before the court for trial on one count
of criminal homicide,1 for allegedly causing the death
of Julius Dale, III (“victim”) on May 27, 2016, at 304
Creek Road, Sadsbury Township, Lancaster County,
Pennsylvania. (Notes of Testimony at 29, 32) (hereinafter “N.T.”). At the conclusion of a five-day jury trial,
Appellant was found guilty of murder of the first degree.2 Id. at 861. On August 9, 2017, Appellant was sentenced to a mandatory term of life imprisonment
without the possibility of parole. See Sentencing Order.
On August 9, 2017, Appellant filed a post-sentence
motion alleging the verdict was against the weight of
the evidence presented at trial and “[n]o reasonable
jury could have concluded that the Commonwealth
disproved beyond a reasonable doubt Defendant’s
1
2

18 Pa.C.S.A. § 2501(a).
18 Pa.C.S.A. § 2502(a).

App. 23
proffered defense of Justification.” See Post-Sentence
Motion. Appellant asked the court to grant his Motion
for Judgement [sic] of Acquittal. Id. The Commonwealth filed a response in opposition, and on August
22, 2017, the court issued an order denying the Motion.
See Order, 8/22/17.
On September 20, 2017, Appellant filed the instant Notice of Appeal to the Superior Court of Pennsylvania. On October 13, 2017, Appellant filed a Motion
for Extension of Time to File Statement of Errors
Complained of on Appeal (“Statement”), and the court
granted him an additional thirty days to file the Statement. See Order, 10/13/2017. On November 13, 2017,
Appellant filed a Statement setting forth the following
allegations of error: (1) Appellant’s request to have new
counsel assume his defense should have been granted
and new counsel should have been afforded a continuance to prepare for trial; (2) the trial court erred when
it allowed the Commonwealth to introduce Appellant’s
intercepted prison visit conversations; (3) Appellant’s
suppression motion should have been granted and his
custodial interrogation should have been suppressed;
(4) the trial court erred by refusing to charge the jury
pursuant to Appellant’s requested castle doctrine instruction; and (5) the trial court erred by allowing the
Commonwealth to introduce evidence of Appellant’s
prior drug dealing activity. See Statement.

App. 24
This opinion is written pursuant to Rule 1925(a)
of the Pennsylvania Rules of Appellate Procedure.3
TESTIMONY
Daniel Umble testified at trial that he moved to
304 Creek Road in October 2015. (N.T. at 183-84). He
and Appellant rented the house together. Id. at 186. A
couple months before the shooting, Appellant gave the
victim permission to move into the house, and the victim was there every day. Id. at 186, 212. According to
Umble, Appellant and the victim both sold drugs out of
the house, and it was “the only thing anybody did in
the house to make money other than me.” Id. at 18788. On May 27, 2016, Umble was working in the garage
when he heard Appellant and the victim arguing. Id.
at 188, 193-96. Umble saw Appellant come out of the
house holding a sawed-off shotgun, and heard him
yell for Umble to “get him out of the house or I’m gonna
kill him.” Id. at 196-97, 200-01. Umble could not see
the victim. Id. at 200. Umble then heard a gunshot. Id.
at 196, 202. When he walked up to the house, Umble
saw the victim laying dead in the threshhold of the
3

On November 9, 2017, the trial court sent a letter to the
Prothonotary of the Superior Court of Pennsylvania requesting
additional time to submit the original record and opinion due to
the extension the trial court gave to Appellant in filing his Statement. Thereafter, on November 27, 2017, the Superior Court issued an order dismissing the appeal for Appellant’s failure to
comply with Pa.R.A.P. 3517. An Application to Reinstate Appeal
was filed by Appellant on November 28, 2017, and the Superior
Court issued an order on December 5, 2017 vacating the order of
November 27, 2017 and reinstating the appeal.

App. 25
basement door and Appellant still had the shotgun in
his hands. Id. at 203. At no time did Umble hear Appellant say anything to indicate he was in fear. Id. at
202.
Mark Porter testified that he also lived at 304
Creek Road with Appellant and the victim. (N.T. at
258). Appellant, who had no other job, sold drugs out of
the house. Id. at 261. The victim sold drugs as well, and
Porter believed he was in business with Appellant. Id.
at 262. On May 27, 2016, Porter returned from the
store and saw Appellant and the victim playing outside
with fireworks. Id. at 266. They were then hanging out
together in the basement area, and there was no sign
of conflict. Id. at 267-70. The victim had a handgun in
a holster on his side. Id. at 270. Porter then walked
down to the garage, and shortly thereafter he heard
Appellant yelling at the victim for betraying him. Id.
at 273-74. Appellant sounded angry, and at no time did
he say anything that would suggest he was in fear. Id.
at 274-75. Porter heard Appellant yell for Umble to
come and get the victim out of his face, followed by a
gunshot. Id. at 275. Porter did not see either individual, nor did he see what occurred. Id.
Anthony Williams testified that he frequently visited 304 Creek Road, where both the victim and Appellant lived and sold drugs. (N.T. at 129-31, 134-35).
Appellant kept his drugs in a safe in the basement and
operated a surveillance system. Id. at 135-37. Williams
stated that a conflict arose between Appellant and
the victim days before the shooting because Appellant

App. 26
became aware the victim was going behind Appellant’s
back to buy drugs. Id.
On May 27, 2016, Williams arrived at the residence and heard arguing. (N.T. at 140-42). Williams
saw Appellant and the victim emerge from the basement door, at which time Appellant had his back to the
victim. Id. at 145-46. Appellant was very agitated and
he was holding a firearm. Id. at 146. Appellant kept
repeating that the victim had betrayed him, and he
told the victim to leave. Id. at 147. The victim, who
seemed remorseful, refused to leave because it appeared he wanted to work things out. Id. Appellant told
the victim two or three times to leave or Appellant
would shoot him. Id. at 147-48. Appellant also called
for Dan Umble to remove the victim from the property.
Id. at 148. Appellant then turned around to face the
victim, pulled the trigger without hesitation, and shot
the victim. Id. at 149.
Williams had a clear view of the Appellant and the
victim during the entire incident. (N.T. at 149). When
he was shot, the victim did not have anything in his
hands, he did not reach for anything at any point, and
he did not say anything threatening to Appellant. Id.
at 151-52. The victim was gesturing with his hands,
but the gestures did not seem threatening or aggressive. Id. at 152. At no time did Williams hear Appellant
say anything that would suggest he was in fear of the
victim. Id. at 154. Appellant then yelled for everyone
to help him drag the body into the woods and told them
to give up their keys and cellphones. Id. Williams put

App. 27
his keys and cellphone on the ground, then backed up
slowly down the walkway. Id. at 155-56.
Rachel Long testified that she knew Appellant for
four or five years, and she was aware he was selling
drugs out of 304 Creek Road. (N.T. at 227-28). While
Long was at the residence with her son on May 27,
2016, she saw the victim wearing a holster with a
handgun on the outside of his clothing. Id. at 234. He
had just recently started wearing the gun. Id. Long did
not believe there was anything unusual about his demeanor. Id. Long also saw Appellant, who told her she
should not have her son “at a drug house.” Id. at 235.
Later that day, while Long was on the third-floor of the
house, she heard Appellant and the victim arguing below. Id. at 236. Specifically, she heard Appellant yelling
that the victim had betrayed him. Id. At no time did
Long hear Appellant say anything that would suggest
he was in fear. Id. at 237. Long then heard a gunshot.
Id. at 238.
Erin Houck testified that she lived at 304 Creek
Road with Appellant and the victim, who were both in
the business of selling drugs out of the house. (N.T. at
288-89, 293-95). On May 25, 2016, the victim informed
Houck that he bought drugs from Appellant’s mother.
Id. at 297. While doing so, the victim pulled out a gun
and stated that he would kill Appellant. Id. at 297, 325.
Houck warned Appellant about the threat that same
day. Id. at 334, 336. On May 26, 2016, Appellant and
the victim got into an argument because the victim
was buying drugs from Appellant’s mother, and Appellant did not approve. Id. at 296. Appellant repeatedly

App. 28
told the victim to leave the house. Id. at 296-97; 32629.
On May 27, 2016, Houck awoke around 12 noon
and saw that the victim had returned to the residence.
(N.T. at 299). She did not recall whether he was still
wearing a gun. Id. at 300. Appellant was still sleeping.
Id. The victim decided to wake Appellant because it
was Friday and it was time to make money by selling
drugs out of the house. Id. at 302. The victim was loud
and animated, but he was not violent or aggressive in
any way. Id. at 303. When he was awakened, Appellant
told the victim he had to leave or give Appellant his
gun. Id. at 307. The victim declined. Id. The victim was
known to wear a gun on his hip, but Houck did not see
the victim with a gun that day, nor did she hear him
threaten Appellant with a gun. Id. at 307, 310, 331-32.
Houck also did not see the victim do anything that was
threatening. Id. at 335. Appellant had a gun strapped
around his neck. Id. at 308.
Houck went from the basement where Appellant
and the victim were located to the third-floor of the
house, at which time she heard Appellant yell for Dan
Umble to “get him the hell out of here.” (N.T. at 30809). Houck then heard a gunshot, followed by Appellant demanding that everyone give him their cellphones. Id. at 309-10. Houck did not see the shooting.
Id. at 311. At no time during the argument did Houck
hear Appellant ask the victim to put down a gun, show
his hands, or say anything that would indicate Appellant was in fear of the victim. Id. at 310. When she
looked out a window, Houck saw Appellant was still

App. 29
armed with a gun. Id. at 312-13. When she left the residence, Houck saw the victim laying in a doorway. Id.
at 316.
Trooper Jordan Hoffman of the Pennsylvania
State Police (“PSP”) testified that on May 27, 2016, at
around 6:25 p.m., he was dispatched to a shots-fired
call in the area of 304 Creek Road, Sadsbury Township,
Lancaster County, Pennsylvania. (N.T. at 374-75).
Hoffman described the area as “very heavily wooded.”
Id. at 376. Upon arrival, Hoffman met with two Christiana police officers who told him there was a possible
shooting with a victim. Id. at 375-77. Music was playing and the doors to the garage and house were open.
Id. at 366-68.
Hoffman heard a radio transmission from Trooper
Andrew Knepp, who was with the party who reported
the incident, so Hoffman moved south to meet Knepp.
(N.T. at 377-78). Hoffman was told by the reporting
party, later identified as Erin Houck, that she heard a
gunshot and heard what sounded like a body hitting
the floor. Id. at 378-79. When Hoffman asked Houck
where the shooter was, Houck indicated that he was
either in the house or in the surrounding area. Id. at
379.
Hoffman arrived back at 304 Creek Road at the
same time Trooper Curtis Matthews was arriving.
(N.T. at 380). Because a possible victim from the shooting could be within the residence, the troopers and
Christiana police officers decided to search the nearby

App. 30
garage and residence looking for the shooter or the victim, but neither were found. Id. at 380-81.
While a perimeter was being set up around the
house, Trooper Adam Shutter located a blue tarp outside the front of the house that looked as if it was covering a body. (N.T. at 383). Shutter and other officers
removed the tarp, at which time they located the deceased victim. Id. at 401. The victim’s skin was ashen
in color, he had no pulse, and he had sustained a gunshot wound. Id. Matthews removed a wallet from the
victim’s pants pocket and identified him as Julius Dale.
Id. at 403.
After the body was discovered, officers launched
an unsuccessful search for the suspect in the woods.
(N.T. at 384). Thereafter, the PSP Special Emergency
Response Team (“SERT”) was activated. Id. at 384-85.
At approximately 7:30 a.m. the following morning,
Trooper John Chulock saw a person moving in the
woods who matched the physical description given of
the suspect. Id. at 424. When Chulock took that individual into custody, the suspect gave a fake name and
two different dates of birth. Id. at 424-25. The suspect
was then positively identified as Lucas Newnam. Id. at
426.
Trooper Michael A. Snyder testified that he was
the lead investigator in this case. (N.T. at 429-30).
Shortly after Appellant was taken into custody, Snyder
and Trooper Chadwick Roberts interviewed Appellant
in the interview room at the PSP Lancaster barracks.
Id. at 431. The interview began at approximately 8:30

App. 31
a.m., about one hour after Appellant’s apprehension.
Id. Prior to beginning the interview, Snyder read Appellant his Miranda rights with the aid of a PSP
Rights Warning and Waiver Miranda form. Id. at 43234; (Com. Exh. #10). Appellant signed the form, waived
his right to counsel, and agreed to answer questions.
(N.T. at 433-34). Appellant was alert, coherent, and not
intoxicated. Id. at 435. The entire interview was audio
and visually recorded. Id. at 436-37; (Com. Exh. #11).
In relation to his interview, Appellant testified at
trial that he initially told police he did not live at 304
Creek Road, non-white people came to the house and
were hassling the victim over drug money, Appellant
fled the house before anything happened to the victim,
he denied knowing what happened, and he repeatedly
swore he did not shoot the victim. (N.T. at 687-88).
However, Appellant told the jury he lied and made up
a story. Id. at 658. As Appellant stated, “most of that
was totally bullshit on my behalf.” Id. Appellant
claimed he eventually told police the truth, that he was
acting in self-defense. Id. at 659.
During his testimony, Appellant also stated that
he had been selling marijuana and methamphetamine
for one year because he had no other source of income.
(N.T. at 625-26). Selling drugs was a long-term productive way to make a living, and it was “easier than actually working.” Id. at 627. Dan Umble also sold drugs
out of the house. Id. at 626-27.
Furthermore, Appellant related that he allowed
the victim to stay at 304 Creek Road rent free, and he

App. 32
gave the victim drugs so the victim could resell for
profit. (N.T. at 622-24, 627). As stated by Appellant,
“[s]everal times I tried to get him on his feet, because
he just couldn’t find a way to generate any income. And
I’d give him a certain quantity of drugs at half street
value, and I provided him with multiple cellphones
that people would call and request drugs and tell him
just to go take care of that. He never really got any
traction.” Id. at 627. Appellant noted that the victim
would use some of the drugs intended for distribution,
which would prevent him from effectively dealing
drugs. Id. at 628. For that reason, the victim ended up
owing Appellant $1,200. Id.
Appellant told the jury that one day prior to the
shooting, he and the victim got into an argument because the victim was stealing drugs from Appellant.
(N.T. at 634-36). Because selling drugs was how Appellant paid the bills, Appellant asked the victim to leave
and not come back. Id. at 635-37. The victim eventually
left. Id. at 635. However, while Appellant was waiting
for more people to come and buy drugs, the victim returned. Id. at 637. Appellant again made it clear that
the victim had to leave permanently, and the victim
left again. Id. at 637-38.
On May 27, 2016, Appellant stated the victim
woke him by knocking on his bedroom door. (N.T. at
638-39). Appellant tried to ignore the victim but eventually they began arguing about the theft. Id. at 63940. According to Appellant, the victim was high and
jumpy, and he had a gun on his hip. Id. at 640-43. Appellant admitted yelling that the victim had betrayed

App. 33
him, because the victim was stealing “stuff ” from the
house and Appellant heard that the victim was threatening his life. Id. at 645. While inside the basement,
the victim poked Appellant in the chest, and Appellant
picked up his shotgun as he backed out of the door because he was scared of the victim. Id. at 646-48. Appellant yelled for Dan Umble to help remove the victim
from the residence, or “somebody’s gonna get shot.” Id.
at 649. Appellant claimed the victim then reached for
his gun so Appellant shot him out of fear for his life.
Id. at 651. Appellant asked everyone for their phones
and keys so they could not call police, he dragged the
victim’s body and covered it with a tarp, and he “ran
screaming into the woods.” Id. at 654-55, 669.
On cross-examination, Appellant admitted his occupation was that of drug dealer, and he sold drugs out
of the house at 304 Creek Road. (N.T. at 675). In fact,
Appellant had “three such establishments.” Id. When
asked to clarify, Appellant stated, “I mean I paid the
rent and some of the utilities at two other places besides this one. This was my main place, but every once
in a while I’d like to divert some of the traffic and go
stay in other places.” Id. at 676. When asked about
other people coming to 304 Creek Road to buy drugs,
Appellant stated, “I don’t think there was ever a time
that someone that didn’t live there came there for any
other reason.” Id.
Appellant further stated that he and the victim
were arguing about marijuana the victim had stolen
from Appellant immediately before Appellant shot
the victim. (N.T. at 676). Appellant intended to sell or

App. 34
smoke that marijuana himself. Id. at 676-77. Appellant
denied killing the victim over a rumor that the victim
was buying drugs from Appellant’s mother, even
though he told the police during his interview that the
argument was over the victim buying drugs from his
mother. Id. at 677. When asked to explain this contradiction, Appellant stated, “I lied a lot to the troopers.”
Id. at 678.
Appellant testified that after the shooting he took
off into the woods, but he denied the prosecutor’s assertion that he hid in the woods because he knew police
were looking for him. (N.T. at 670-71). When confronted
with a recorded conversation between he and his
mother at Lancaster County Prison (“LCP”) after his
arrest, where Appellant told his mother he considered
holding out in a foxhole but decided not to because he
didn’t want to go down like that, Appellant agreed he
made the statement. Id. at 673. Appellant also ditched
his cellphone in the woods, but he denied doing so to
prevent police from tracking him. Id. at 672. When confronted with a recorded conversation between he and
his mother at LCP after the arrest, where Appellant
said he left the cellphone in the woods so police could
not track him, Appellant acknowledged he “might have
said it.” Id. at 672-673.
Trooper Roberts testified that when Appellant was
taken into custody, he had $3,875 in U.S. currency. (N.T.
at 516-18). Roberts also discussed the surveillance system located at the residence, which included three different cameras that recorded footage into a DVR. Id. at
522-533. One camera focused on the bottom basement

App. 35
door, a second camera focused on the corner of the residence, and a third camera overlooked the garage area.
Id. at 523. The cameras, which were activated by motion sensor, did not capture the shooting incident itself.
Id. at 523-31, 541. A safe recovered from the residence
contained Appellant’s identification, $664 in U.S. currency, owe sheets, drug paraphernalia for distribution,
and methamphetamine. Id. at 532-39.
Trooper Tien Duong testified that he assisted in
evidence collection. (N.T. at 446). While processing
the crime scene, Duong removed a gun from the front
of the residence. Id. at 448. A second gun, which was
holstered with a snap across the back of the gun, was
located just outside the doorway of the basement entrance to the residence. Id. at 449-52.
Dr. Wayne K. Ross, Lancaster County Forensic
Pathologist, testified that he conducted an autopsy on
Julius Dale, III., (N.T. at 601). According to Dr. Ross,
the cause of death was gunshot wound to the chest. Id.
at 608. The manner of death was homicide. Id.
DISCUSSION
I.

The Trial Court Properly Denied Appellant’s Request for a Trial Continuance so
New Counsel Could Enter Their Appearance and Prepare for Trial.

Appellant first argues that his request to have
new counsel assume his defense should have been
granted, and new counsel should have been afforded
a continuance to prepare for trial. See Statement.

App. 36
Appellant asserts this denial of his request for a continuance was an abuse of discretion which amounted
to a violation of his state and federal constitutional
rights. Id.
The grant or denial of a motion for a continuance
is within the sound discretion of the trial court, and
will not be reversed absent an abuse of discretion.
Commonwealth v. Brooks, 104 A.3d 466, 469 (Pa. 2014).
An accused enjoys a right to choose at his own expense
any lawyer he may desire. Commonwealth v. Novak,
150 A.2d 102, 109 (Pa. 1959). However, a defendant’s
right to choose counsel must be exercised in a reasonable time and manner. Id. at 110. An accused’s right to
choose a particular lawyer is not absolute, but must be
weighed against the public need for the efficient and
effective administration of justice. Commonwealth v.
Kittrell, 427 A.2d 1380, 1381 (Pa. Super. 1981); see also
Commonwealth v. Brown, 145 A.3d 196, 204 n.16 (Pa.
Super. 2016), appeal granted, 165 A.3d 868 (Pa. 2017).
In the present case, Appellant was arrested and
charged with one count of criminal homicide on May
28, 2016. (Notes of Testimony, Pretrial Hearing, 7/20/17
at 3) (hereinafter “N.T.P.H.”). On July 28, 2016, Randall
L. Miller, Esquire, entered his appearance as courtappointed counsel for Appellant. Id.; see also Entry of
Appearance. Thereafter, Mr. Miller continued to represent Appellant at all subsequent court proceedings.
(N.T.P.H., 7/20/17 at 3). On January 6, 2017, following
a pretrial hearing, the trial court entered an order
scheduling trial to begin on May 22, 2017. See 1/6/17
Order. However, on April 27, 2017, less than one month

App. 37
before trial was to begin, Mr. Miller advised the court
that he would not be able to proceed to trial on May 22,
2017, due to a medical condition. (N.T.P.H., 7/20/17 at
3-4). Counsel asked for an indefinite continuance because he did not know when his medical issues would
be resolved. Id. at 4.
Because the court was concerned about Appellant’s right to a speedy trial and prejudice to the Commonwealth, the court appointed Edwin G. Pfursich,
Esquire, as new counsel on April 27, 2017. (N.T.P.H.,
7/20/17 at 4). Mr. Pfursich was initially of the belief
that he could be prepared to proceed to trial on May
22, 2017. Id. However, on May 15, 2017, only seven
days before the start of trial, Mr. Pfursich submitted
an uncontested motion to continue trial for sixty days
because he determined he could not be prepared for
trial. Id. at 4-5; see also Defendant’s Uncontested Motion to Continue Trial. The motion was granted and
trial was rescheduled for July 31, 2017. (N.T.P.H.,
7/20/17 at 5; see also 5/17/17 Rescheduling Order).
On July 12, 2017, Appellant and Mr. Pfursich appeared in court for a pretrial evidentiary hearing. At
the conclusion of the hearing, the court asked whether
there were any additional matters to address, and
there was no response from Appellant. (Notes of Testimony, Evidentiary Hearing 7/12/17 at 66) (hereinafter
“N.T.E.H.”). The court asked whether counsel would
be prepared to proceed to trial on July 31, 2017, and
Appellant’s counsel stated he was. Id. At no time during this hearing, which was held only 19 days before
the start of trial, did Appellant inform the court of

App. 38
dissatisfaction with appointed counsel or a desire to retain private counsel.4
On July 19, 2017, only nine business days before
the start of trial, appointed counsel appeared in chambers to announce that Michael V. Marinaro, Esquire,
had entered his appearance as private counsel for Appellant. (N.T.P.H., 7/20/17 at 2). This entry of appearance was filed by Mr. Marinaro while Mr. Pfursich was
still appointed counsel for Appellant, and despite the
fact that appointed counsel had never filed a motion to
withdraw. Id. at 2-3.5 Thus, a hearing was scheduled
for the following day. Prior to the scheduled hearing on
July 20, 2017, Mr. Pfursich provided chambers with a
motion to withdraw as counsel, which was based on the
entry of appearance filed by Mr. Marinaro. See Motion
to Withdraw.
At the hearing held on July 20, 2017, the court was
prepared to grant Mr. Pfursich’s motion to withdraw
as counsel and permit Mr. Marinaro to represent
4

When Appellant was asked at the hearing on July 20, 2017
why he did not speak up, Appellant claimed he was afraid of being
held in contempt to court. (N.T.P.H., 7/20/17 at 16-18). However,
there was absolutely nothing in the record to indicate that the
trial court ever threatened Appellant in any manner or treated
him with anything other than the professional courtesy he was to
be afforded.
5
Counsel for a defendant may not withdraw his appearance
except by leave of court. Pa.R.Crim.P. 120. When granting leave,
the court should determine whether new counsel will be stepping
in, and if so whether the change in attorneys will not delay the
proceedings or prejudice the defendant, particularly concerning
time limits. Pa.R.Crim.P. 120 (Comment).

App. 39
Appellant at trial if Mr. Marinaro was prepared to
proceed to trial on the scheduled date of July 31, 2017.
(N.T.P.H., 7/20/17 at 10-11; see also Order, 7/21/17).
Thus, Appellant was entitled to counsel of his choice.
However, Mr. Marinaro stated he would not be prepared to proceed to trial on July 31, 2017. (N.T.P.H.,
7/20/17 at 10). In order to properly prepare the case,
Mr. Marinaro stated he would need a trial continuance
of at least two to three months. Id. at 10-11.
The trial court then expressed concern about a
continuance, noting the case was now fourteen months
old, Appellant has been represented by appointed
counsel continuously for approximately one year, Appellant had more than one year to retain private counsel but failed to do so, all pretrial matters had been
resolved, at no time did Appellant express concern
with appointed counsel or a desire to retain private
counsel when he was in court during any prior court
proceedings, the case was already continued one time
on the defense, the prosecutor had already issued
subpoenas and was meeting with witnesses, and trial
was scheduled to begin in only eight business days.
(N.T.P.H., 7/20/17 at 3-6). Furthermore, Mr. Pfursich
acknowledged he had been diligently preparing the
case since April 2017, and he was prepared to proceed
to trial as Appellant’s counsel on July 31, 2017. Id. at
7. Moreover, if Appellant’s continuance request was
granted, the court would not be available until October
at the earliest, which would be at least 17 months after
the shooting death. Id. at 5.

App. 40
When the court asked why the continuance request
should be granted, Mr. Marinaro cited Appellant’s
right to the counsel of his choice. (N.T.P.H., 7/20/17 at
24). Appellant stated that while he was extremely
pleased with prior appointed counsel, he was dissatisfied with Mr. Pfursich. Id. at 16-19. Mr. Pfursich stated
that because Appellant was satisfied with prior appointed counsel, he really only had three months to
consider hiring private counsel rather than fourteen
months because had no reason to hire private counsel
until May 2017. Id. at 14-15.
When pressed for details about his concerns with
Mr. Pfursich, Appellant stated that he had not yet been
able to hear the contents of a telephone call which the
prosecutor sent by email to counsel just one week ago,
because counsel could not get it to play on his computer. (N.T.P.H., 7/20/17 at 19-21). In response, counsel
indicated he was working with the prosecutor to correct the problem. Id. Another concern expressed by Appellant was the inability of Mr. Pfursich to play on the
computer a complete statement Appellant had given to
the police. Id. at 21. However, Appellant acknowledged
that prior counsel was unable to do so as well. Id. Appellant also referenced not hearing one witness statement. Id. at 20. However, counsel noted he intended to
visit Appellant in the days leading up to trial for final
preparations. Id. at 20-21. Finally, Appellant expressed
concern about the experience and enthusiasm of Mr.
Pfursich in defending his case compared to prior counsel. Id. at 23, 32-33. However, from discussion it was

App. 41
obvious Appellant was basing this concern solely on
the contrasting styles of the attorneys. Id.
When asked about Appellant’s stated concerns,
Mr. Pfursich said he had met with Appellant on five or
six occasions, they reviewed discovery, and the relationship has been cordial. (N.T.P.H., 7/20/17 at 9-13).
Originally, Appellant and counsel interacted well and
Appellant was very interested in preparing for his
case. Id. at 8. However, the relationship seemed to
change when counsel presented a plea offer from the
Commonwealth, along with a recommendation that
Appellant consider the offer. Id. at 29, 31, 40-41. Appellant was not happy with the advice and rejected the
offer. Id. at 29, 40-41.6 Appellant also expressed dissatisfaction with counsel’s opinion and his advice as to the
strengths, weaknesses and strategy of the case. Id. at
9. However, counsel did not believe this was uncommon. Id.
Regarding experience, Mr. Pfursich noted he has
been a practicing attorney for 12 years. (N.T.P.H.,
7/20/17 at 33). He spent six years as a prosecutor and
six years as a criminal defense attorney, handling between 30-40 jury trials. Id. at 33-34. Despite Appellant’s representations to the court, Mr. Pfursich stated
he did not believe he had any irreconcilable differences
with Appellant, he believed he could properly represent Appellant at trial, he has diligently prepared the
6

Prior appointed counsel, for whom Appellant stated he was
extremely pleased, also attended that meeting and agreed with
the advice of Mr. Pfursich. (N.T.P.H., 7/20/17 at 29-31, 40).

App. 42
case, and he was ready to proceed to trial on July 31,
2017. Id. at 6-7, 10, 31. He only filed the motion to withdraw as counsel because that was his common practice
once another attorney enters their appearance. Id. at
6-7.
On July 21, 2017, after conducting a proper balancing test, the court entered an opinion and order
concluding that Appellant’s right to counsel of his
choice was not exercised in a reasonable time and
manner when weighed against the public need for the
efficient and effective administration of justice. See
Opinion and Order, 7/21/17. Consequently, counsel’s
motion to withdraw was denied, because granting the
motion would have required a trial continuance. Id.
In Commonwealth v. Harding, 369 A.2d 429 (Pa.
Super. 1976), the trial court’s denial of a defendant’s
motion for continuance so he could obtain private counsel to replace appointed counsel did not constitute an
abuse of discretion or violate the defendant’s Sixth
Amendment rights where the defendant was not tried
until 11 months after his arrest and the motion was
not made until a few days before his trial. Id. at 430.
In Commonwealth v. Randolph, 873 A.2d 1277 (Pa.
2005), the trial court acted within its discretion in a
capital-murder trial in denying a defendant’s request
for a continuance to enable private counsel to represent him since the case had already been continued
twice on the defendant and the defendant waited until
two business days before trial was scheduled to begin
to apprise the trial court of his desire for private counsel. Id. at 1282. In Commonwealth v. Basemore, 582

App. 43
A.2d 861 (Pa. 1990), the Supreme Court held that the
defendant waived his right to counsel of his choice by
failing to take any steps to retain private counsel and
in belatedly requesting a continuance and appointment of new counsel without setting forth a substantial reason. Id. at 866.
More recently, the Pennsylvania Supreme Court
held that the trial court did not abuse its discretion in
denying a continuance request by a defendant on the
day of jury selection so the defendant could proceed
pro se. Brooks, 104 A.3d at 467. The Court noted that
nothing in the record showed the defendant had “irreconcilable differences” with his appointed counsel or received less than competent representation. Id. at 477.
Rather, the defendant claimed his counsel had not met
with him to discuss the case to his satisfaction. Id. The
trial court inquired into that very point, and the record
showed that counsel discussed the case with the defendant, counsel was well-prepared, and there was no
indication any alleged ongoing differences between the
defendant and appointed counsel would effect the trial.
Id. Furthermore, the initial trial date was continued
for four weeks and the case was at least one year old.
Id. at 472.
As stated in Brooks, the trial court may manage
its own trial schedule, and “the silence of the Commonwealth, or even the agreement of the Commonwealth,
does not control a judge’s exercise of discretion in such
matters; and, in this case, the lawyers for both sides
were ready to proceed to trial on this already continued
trial date.” 104 A.3d at 477. As the Court noted:

App. 44
[T]his appeal is not simply about the right to
self-representation; it also involves the timing
of such requests, and the trial court’s authority to manage its docket and trial schedule . . .
Obviously, defendants should not be permitted to unreasonably clog the machinery of
justice or hamper and delay the effort to administer justice effectively.
Id. at 474-75 (internal quotations and citations omitted).
In his Statement, Appellant alleges “the Commonwealth did not object to the continuance and was not
substantially prejudiced by the delay.” See Statement.
However, the Commonwealth did object to the court
granting the motion to withdraw by Mr. Pfursich if that
meant continuing the case:
THE COURT:

All right. What is the Commonwealth’s official position with regard to the request, first of all,
the motion to withdraw by Mr.
Pfursich, and then, if Mr. Marinaro is then counsel, the request
for a continuance?

PROSECUTOR: My position with respect to if Mr.
Marinaro is granted permission
to enter, I certainly would not be
opposed to a continuance. I think
it would be necessary for him to
have a continuance. I hope, for
how eager the family is to have
this case resolved, I don’t think
there’s any appetite for having it

App. 45
tried a second time if it comes
down to that. As far as the withdrawal of Mr. Pfursich, he has
been in this case for approximately two-and-a-half months.
As I said, I am ready to proceed.
I know Mr. Pfursich to be an excellent defense attorney, and so I
would be opposed to a request for
– if it’s going to result in the continuance of this case to have Mr.
Pfursich leave the case, then I
would be opposed to Mr. Pfursich
leaving the case.
(N.T.P.H., 7/20/17 at 37-38) (emphasis added). Clearly,
the Commonwealth did object to a continuance by opposing Mr. Pfursich’s motion to withdraw. Id. However,
if Mr. Marinaro was permitted to enter his appearance,
a continuance would be necessary to avoid a retrial. Id.
Appellant is correct that the Commonwealth stated
they did not believe they would be substantially prejudiced if the case was continued. (N.T.P.H., 7/20/17 at
36-37). However, the prosecutor did indicate that all
witnesses had been subpoenaed for trial, the prosecutor had been meeting with the witnesses in preparation for trial, some witnesses did not have steady
addresses or phone numbers, while he knew where
those witnesses were at the present time there was
no guarantee they could be located in the event the
case was continued to a later date, and the prosecutor
had no way of knowing whether his witnesses would
be available for trial in October. Id. at 6, 34-37.

App. 46
Furthermore, the Commonwealth noted the case was
over one year old, they were ready to proceed to trial,
and family members of the victim were anxious to have
this case resolved. Id. at 34-35. These concerns were
noted by the court, and “the silence of the Commonwealth, or even the agreement of the Commonwealth,
does not control a judge’s exercise of discretion in such
matters . . . ”. Brooks, 104 A.3d at 477.
Appellant’s trial date was scheduled for July 31,
2017, fourteen months after his arrest for homicide,
and a three-month continuance would have scheduled
the trial for seventeen months after the shooting. In
Harding, supra, the trial court’s denial of the defendant’s continuance motion so he could obtain private
counsel to replace appointed counsel did not constitute
an abuse of discretion where the defendant was tried
eleven months after his arrest and the motion was
not made until a few days before his trial. A delay of
seventeen months in this case would be unreasonable
under the circumstances, particularly where family
members of the victim were seeking closure and the
case had already been continued one time by the defense for a period of two months.
Furthermore, Appellant had more than one year
to retain private counsel, yet he failed to do so until
eight business days before the start of the rescheduled
trial. Even if a desire for private counsel did not occur
until May 2017, Appellant still had plenty of time before July 19, 2017 to hire private counsel or notify the
court of his intent to do so. Appellant failed to do so,

App. 47
even when he appeared before the court on July 12,
2017 for an evidentiary hearing.
The Commonwealth for the second time had subpoenaed witnesses, prepared the case for trial to start
on July 31, 2017, and indicated that any continuance
could potentially result in an inability to keep track
of witnesses. The Commonwealth also did not know
whether their witnesses would be available for trial in
October, so there was the potential for further dely.
There were no irreconcilable differences between
Appellant and Mr. Pfursich. As in Basemore, supra,
Appellant failed to set forth a substantial reason why
counsel should no longer represent him. Moreover, as
in Brooks, the attorneys for both sides were ready to
proceed to trial on July 31, 2017, without the need for
further delay. Further, there was no indication that
any conflict existed between Appellant and Mr. Pfursich during the course of the trial, and nothing in the
record to show that Appellant received anything less
than competent representation.7
Finally, the first request for a defense continuance
occurred on May 15, 2017, only seven days before the
scheduled start of trial, making it difficult for the court
to schedule other hearings during a week reserved
for trial. A second defense continuance on such short
7

Immediately prior to the start of trial, the court confirmed
with Mr. Pfursich that Appellant had been cooperative with counsel since the hearing held on July 20, 2017, and Mr. Pfursich did
not anticipate any problems with Appellant during the course of
the trial. (N.T. at 21).

App. 48
notice would have resulted in similar court inefficiencies. As stated in Brooks, supra, a defendant’s request
for a continuance so he can obtain private counsel involves not only the right to counsel of one’s choice, but
also the timing of such a request and the trial court’s
authority to manage its docket and trial schedule. Defendants should not be permitted to unreasonably clog
the machinery of justice or hamper and delay the effort
to administer justice effectively.
For all of these reasons, the trial court properly denied Appellant’s request for a trial continuance.8

8

Appellant cited Commonwealth v. Prysock, 972 A.2d 539
(Pa. Super. 2009) at the hearing in support of his motion. In
Prysock, the Superior Court found the trial court abused its discretion when it denied the appellant’s request for a continuance
of his trial, which was scheduled to be held less than six months
after he was charged with the offense, so he might proceed to trial
with retained counsel of his choice. Id. at 545. However, Prysock
is distinguishable from the instant case. In Prysock, the case was
scheduled for trial less than six months after the appellant was
charged, appointed counsel represented the appellant for less
than 30 days prior to the start of trial, the Commonwealth did not
object to a continuance, the court did not conduct an extensive
inquiry into the nature of the dispute between the appellant and
appointed counsel, the court relied on the single factor of one prior
continuance to deny the request, the court failed to engage in any
balancing of the appellant’s right to retain counsel of his choice
versus the Commonwealth’s right to the swift administration of
justice, and the court failed to explain how the swift administration of justice would be thwarted by granting the continuance. Id.
at 544-45. The holding in Prysock was also questioned by the Supreme Court in Brooks, supra. 104 A.3d at 477.

App. 49
II.

The Trial Court Did Not Err When it Allowed
the Commonwealth to Introduce Appellant’s
Intercepted Prison Visit Conversations.

Appellant asserts the trial court erred by allowing
the Commonwealth to introduce his intercepted prison
visit conversations, because they were intercepted in
the absence of explicit consent by both parties or by
judicial authorization in violation of the Wiretap Act,
18 Pa.C.S.A. § 5701, et seq., and Commonwealth v.
Fant, 146 A.3d 1254 (Pa. 2016). See Statement.
On January 31, 2017, the Commonwealth filed a
Notice seeking to introduce evidence of Appellant’s
pretrial incarceration in LCP, to place in proper context recorded telephone calls involving Appellant while
he was incarcerated awaiting trial on the present
charge of homicide. See Notice of Intention to Introduce Evidence of Other Crimes, Wrongs or Acts Pursuant to Rule of Evidence 404. On that same day,
Appellant filed a motion in limine seeking to preclude
as irrelevant or overly prejudicial the contents of those
telephone calls. See Motion in Limine.
On April 17, 2017, a pretrial hearing was held on
these motions, at which time the court sua sponte questioned whether the recorded conversations would be
inadmissible in light of Commonwealth v. Fant, 146
A.3d 1254 (Pa. 2016), which precluded the admission
of conversations recorded in prison. (N.T.P.H., 4/17/17
at 16-21).9 The Commonwealth replied that Appellant
9

In Fant, the defendant moved to suppress recordings of conversations he had with visitors in prison using a telephone-like

App. 50
never filed a motion to suppress pursuant to Fant. Id.
at 16. Nevertheless, Fant was not applicable to the present case, and an evidentiary hearing would show that
Appellant and his guests had no expectation of privacy
in the recorded conversations. Id. at 17.
On May 5, 2017, prior to an evidentiary hearing on
this matter, Appellant filed a motion in limine seeking
to preclude the admissibility of conversations involving Appellant and his visitors which were recorded
at LCP, alleging they were recorded in violation of the
Pennsylvania Wiretapping and Electronic Surveillance Control Act. See Motion in Limine to Preclude
Visit Conversations Inside Lancaster County Prison as
a Violation of the Pennsylvania Wiretapping and Electronic Surveillance Control Act, 18 Pa.C.S.A. Section
5701 et al.
At the hearing held on May 5, 2017, Robert Barley
testified that he works as the inmate disciplinary coordinator and investigative assistant at LCP. (N.T.P.H.,
5/5/17 at 4). Barley stated there is a non-contact area
of the prison that contains ten separate handsets
which are used to facilitate communication between
inmates and visitors, who face each other on separate
sides of a glass partition. Id. at 4-5, 12. Barley presented photographs of the non-contact area. Id. at 5;
handset apparatus, because the recordings did not involve the
dialing of a telephone number or use of a telephone company outside the facility. 146 A.3d at 1255-56. The Supreme Court agreed
and held that visit conversations in prison do not constitute telephone calls subject to the exception set forth in Section 5704(14)
of the Wiretap Act. Id. at 1263-65.

App. 51
(Com. Exh. #1-7). The handsets are about three to four
feet apart, and there is a small glass pane between
each handset presumably to give the inmates and visitors “a little bit of privacy.” (N.T.P.H, 5/5/17 at 13-14).
There is nothing else to separate the guests from each
other or the inmates from each other in an otherwise
large open area. See Com. Exh. #1.
When the handsets are used, the conversations
are recorded. (N.T.P.H., 5/5/17 at 5). Above each handset, plainly visible to the inmate and visitor on their
side of the glass partition, is a sign that reads in capital letters “THIS CALL MAY BE INTERCEPTED,
RECORDED, MONITORED, OR DIVULGED AT ANY
TIME.” Id. at 5-8, 10; (Com. Exh. #1-3, 5-7).
Before the start of each conversation, a recording
also advises the inmate and their visitor that their
conversations are “subject to recording and monitoring.” (N.T.P.H., 5/5/17 at 8-10; Com. Exh. #8). These
signs and the audio warning advising that the conversations may be monitored and/or recorded were in
place prior to Appellant’s incarceration in May 2016,
such that he and his visitors were clearly on notice
prior to each conversation that what they said could be
subject to interception, recording, monitoring, and subsequent divulgence. (N.T.P.H., 5/5/17 at 10). On crossexamination, Barley testified that he did not know
whether inmates are required to provide any written
or verbal consent to the recording, and he was not
aware of any procedures to ensure the inmates understand what the sign says or the recording means. Id. at
11.

App. 52
On May 12, 2017, following the evidentiary hearing, the court entered an opinion and order denying
Appellant’s motion in limine, finding that Appellant
and his visitors gave prior consent to the interception
of their conversations by voluntarily engaging in conversation after knowing in advance that their conversations could be intercepted, monitored, recorded, and
divulged. See Opinion and Order, 5/12/17. Because Appellant and his visitors did not have any reasonable
expectation of privacy in their conversations, the recorded conversations fell within the mutual consent exception of the Wiretap Act (18 Pa.C.S.A. Section
5704(4)). Id. Appellant reserved the right to object to
admissibility at trial based on relevance. Id.
Under the Pennsylvania Wiretapping and Electronic Surveillance Control Act (“Wiretap Act”), it is
unlawful if one “intentionally intercepts, endeavors to
intercept, or procures any other person to intercept or
endeavor to intercept any wire, electronic or oral communication[,]” except as otherwise provided in the Act.
18 Pa.C.S.A. § 5703(1). The Wiretap Act is intended to
protect individual privacy. Commonwealth v. Parrella,
610 A.2d 1006, 1009 (Pa. Super. 1992). Thus, any exception to the broad prohibition against interception,
disclosure, or use of electronic, wire, or oral communications must be very narrowly drawn. United Tel. Co.
of Pa. v. Pa. P.U.C., 676 A.2d 1244, 1252 (Pa. Cmwlth.
1996). Unless the interception was made pursuant to
an exception in Section 5704 of the Act, or by prior
court order, an aggrieved party to any proceeding may
move to exclude the contents of the wire, electronic or

App. 53
oral communication, or evidence derived therefrom. 18
Pa.C.S.A. § 5721.1(b).
One exception set forth in Section 5704 of the
Wiretap Act permits a county correctional facility to
intercept, record, monitor or divulge the contents of
any “telephone calls” from or to an inmate under certain conditions. 18 Pa.C.S.A. § 5704(14). However, in
Fant, supra, the Supreme Court held that visit conversations in prison do not constitute telephone calls subject to the specific exception set forth in Section
5704(14) of the Wiretap Act. 146 A.3d at 1263-65. Thus,
because the handsets in the present case were similar
to those used in Fant, the trial court determined that
the Commonwealth would not be permitted to introduce Appellant’s recorded visit conversations as an exception pursuant to Section 5704(14) of the Wiretap
Act.
Nevertheless, recorded conversations may be admissible under Section 5704(4) of the Wiretap Act
when all parties to the conversation consent to the interception:
It shall not be unlawful and no prior court approval shall be required under this chapter
for [a] person, to intercept a wire, electronic or
oral communication, where all parties to the
communication have given prior consent to
such interception.
18 Pa.C.S.A. § 5704(4). “[I]n the case of a private individual, it is the law of Pennsylvania under 18 Pa.C.S.A.
§ 5704(4) that all parties to the communication must

App. 54
consent to the interception.” Commonwealth v. Jung,
531 A.2d 498, 503 (Pa. Super. 1987) (emphasis in original).
In Commonwealth v. Rozanski, 433 A.2d 1382 (Pa.
Super. 1981), where the appellant argued it was error
for the lower court to admit into evidence a tape recorded message he left for the rector of a church because
its admission violated the Wiretap Act, the Superior
Court cited 18 Pa.C.S.A. Section 5704(4) in rejecting
this argument by stating it was not unlawful to intercept a wire or oral communication where all parties to
the communication gave prior consent to the interception. Id. at 1385-86. In Commonwealth v. De Marco,
578 A.2d 942 (Pa. Super. 1990), the Superior Court held
that messages left on answering machines fall within
the mutual consent exception of the Wiretap Act and
are not unlawful interceptions. Id. at 948. As the court
noted:
[W]e take judicial notice of the irrefutable fact
that any reasonably intelligent person leaving
a message on an ordinary answering machine
would have to be aware of, and consented by
conduct to, the recording of the message on
the answering machine tape. Absent some
special showing of unique attributes of a particular answering machine cloaking its identity as an answering machine (not suggested
here), we cannot imagine how one could not
know and intend that the message placed
upon the answering machine tape be taped,
and by the very act of leaving a message, expressly consent by conduct to the taping of that

App. 55
message. Thus, we find, as a matter of law,
that ordinary answering machine tapes fall
within the mutual consent provision of the
[Wiretap Act], 18 Pa.C.S.A. § 5704(4), are not
unlawful interceptions, and are not subject to
the statutory exclusionary rule, 18 Pa.C.S.A.
§ 5721.
Id. (emphasis in original).
In Fant, supra, the Supreme Court implicitly approved of 18 Pa.C.S.A. § 5704(4) as an exception to the
Wiretap Act when it stated “[a]bsent a showing that
Fant lacked a reasonable expectation of privacy in
these visit conversations, suppression is still appropriate to remedy a constitutional violation, if not a statutory one.” 146 A.3d at 1265 n.13. However, the Court
was bound by the suppression court’s conclusion that
the defendant had an expectation of privacy, after the
trial court found the defendant was alone in a room
with a visitor and there was no evidence he was
warned the conversation was not private or could be
intercepted. Id. at 1263-65.
Because Appellant and his visitors gave prior consent to the interception of their communications by
voluntarily engaging in conversations after knowing
the conversations could be intercepted, monitored, recorded, and divulged, Appellant and his visitors no
longer had any reasonable expectation of privacy in
their conversations. As such, these recorded conversations fell within the mutual consent exception of the
Wiretap Act, 18 Pa.C.S.A. § 5704(4), and they were not

App. 56
subject to the statutory exclusionary rule of 18
Pa.C.S.A. § 5721.1(b).
Nevertheless, Appellant argued in his memorandum in support of his motion in limine that section
5704(4) is inapplicable because there is no evidence
that he or his guests gave explicit prior written or
verbal consent to the interception, and there is no evidence to show that Appellant or his guests read the
signs posted in the non-contact room or understood the
audio warnings. See Memorandum. However, in Commonwealth v. Proetto, 771 A.2d 823 (Pa. Super. 2001),
the Superior Court found that a defendant expressly
consented to the recording of emails and chatroom
messages he sent over the internet by the very act of
sending a communication over the internet, even
though the defendant never explicitly consented to the
interception or recording. Id. at 829. This express consent was extended to text messages in Commonwealth
v. Diego, 119 A.3d 370, 376-77 (Pa. Super. 2015).
As in De Marco, Proetto, and Diego, this court took
judicial notice of the irrefutable fact that any reasonably intelligent person choosing to speak with another
through the handsets in question would have to be
aware of and intend that their conversations be recorded and subsequently divulged. Unlike Fant, who
was alone in a room and was not warned that his conversation could be intercepted, Appellant and his visitors were in large rooms that contained nine other

App. 57
handsets in close proximity to one another.10 Appellant
and his guests were also warned prior to their conversations, by visual signs in capital letters and audio
message, that anything they said could be intercepted,
recorded, monitored or divulged. Appellant and his
visitors consented by their conduct to the interception,
recording, monitoring and divulgence of their conversations when they chose to engage in conversation after being put on notice.
Appellant further claimed in his memorandum
that any implied consent was involuntary because he
was faced with the choice of consenting to the interception or losing his right to visitation. See Memorandum.
However, in Commonwealth v. Clark, 533 A.2d 1376
(Pa. 1987), where the Supreme Court addressed voluntary consent under the Wiretap Act when an informant gave prior consent to an interception but
testified he did so only because he did not want to face
criminal prosecution, the Court found it would be inappropriate to conclude that the informant’s consent
10

In Agnew v. Dupler, 717 A.2d 519, 524 (Pa. 1998), the Supreme Court held that a police officer’s conversation with two
other officers in the squadroom were not oral communications
within the meaning of the Wiretap Act because the squadroom
door was open, all conversations could be heard without amplification in the police chief ’s office, the intercom lines on the squadroom telephones could have been open at any time, and therefore
the officer did not possess a reasonable expectation of privacy in
the conversation. Id. at 524. Likewise, in the present case, the
inmate and visitor rooms are wide open, the inmates sit only 3-4
feet apart while conversing with their guests, and photographs
illustrate the very real probability that Appellant’s conversations
could be heard by others without amplification.

App. 58
was involuntary based on an unfounded inference that
the threat of prosecution overwhelmed his free will. Id.
at 1379-80. The Court stated:
To determine that [informant’s] consent was
coerced merely because his alternative was
unpleasant is to conclude that one cannot
choose the lesser of two evils. Such a suggestion belies reality. Because we find that the
consent given by [informant] was not compromised and was, therefore, voluntary, we must
reject the Superior Court’s Order affirming
the suppression of the telephonic disclosures
made by [appellee] to [informant].
Id. at 1382.
Correctional facilities have a rational and legitimate reason for intercepting, recording, monitoring,
and divulging inmate telephone calls, to protect the
public from criminal activity on the part of inmates.
Chimenti v. Pa. Dep’t of Corr., 720 A.2d 205, 214 (Pa.
Cmwlth. 1998). Inmates and visitors have a choice to
either accept these restrictions or decline to use the
headsets. Consent is not coerced merely because the
alternative is unpleasant. See Clark. In this case, Appellant was not subject to duress, coercion, or an overborne will when he decided to converse by headset
knowing his conversations were recorded. It would
be pure sophistry to dismiss Appellant’s voluntary

App. 59
consent on an unfounded inference of involuntary consent.11
When reviewing a trial court’s decision to grant or
deny a motion in limine, the appellate courts apply an
evidentiary abuse of discretion standard. Commonwealth v. Schley, 136 A.3d 511, 514 (Pa. Super. 2016).
For the reasons stated herein, the trial court did not
err when it allowed the Commonwealth to introduce
Appellant’s intercepted prison visit conversations.12
Assuming, arguendo, the recorded conversations
were inadmissible, an erroneous ruling on an evidentiary issue does not automatically entitle a defendant
to relief where the error was harmless. Commonwealth
v. Yockey, 158 A.3d 1246, 1254 (Pa. Super. 2017). Not all
errors at trial entitle an appellant to a new trial, and
the harmless error doctrine reflects the reality that an
11

Custody alone has never been enough to demonstrate a
coerced confession or involuntary consent to search. Commonwealth v. Paredes-Rosaria, 700 A.2d 1296, 1299 (Pa. Super.
1997).
12
On May 12, 2017, the court entered an order allowing the
Commonwealth to introduce evidence of Appellant’s pretrial incarceration, because it would be difficult to explain the context in
which the intercepted communications occurred without showing
where he was located. See Order and Opinion, 5/12/17. Further,
Appellant’s incarceration would have very little prejudicial effect
because it would not be unreasonable for the jury to assume he
was incarcerated on this charge pending trial, and the court
would provide a cautionary instruction. Id. In Commonwealth v.
Kinard, 95 A.3d 279 (Pa. Super. 2014), the Superior Court held
that the jury was properly informed the defendant was in prison
when phone calls were recorded as long as a cautionary instruction was given. Id. at 287.

App. 60
accused is entitled to a fair trial, but not a perfect trial.
Commonwealth v. Green, 162 A.3d 509, 519 (Pa. Super.
2017). An error may be harmless if the properly admitted evidence of guilt was so overwhelming and the prejudicial effect so insignificant by comparison that it is
clear beyond a reasonable doubt the error could not
have contributed to the verdict. Commonwealth v.
Stetler, 95 A.3d 864, 890 (Pa. Super. 2014).
At trial, the Commonwealth introduced redacted
conversations between Appellant and his mother
which occurred at LCP on June 12, 2016 and September 18, 2016, following his arrest on this charge. (N.T.
at 583-96; Com. Ex. #57). The Commonwealth played
four brief excerpts, which essentially corroborated Appellant’s drug dealing activities and rebutted the statement he gave to police that he acted in self-defense. Id.
Thereafter, the prosecutor briefly referenced those recorded conversations while cross-examining Appellant
in order to challenge his testimony regarding flight after the shooting occurred. (N.T. at 672-73).
The evidence of guilt in this case was overwhelming, as several eyewitnesses testified that Appellant
shot the victim without provocation. Because the
properly admitted evidence of guilt was so overwhelming and the prejudicial effect so insignificant by comparison, it is clear beyond a reasonable doubt that any
error could not have contributed to the verdict.

App. 61
III. The Trial Court Properly Denied the Motion
to Suppress Appellant’s Custodial Interrogation.
Appellant next argues his Motion to Suppress Defendant’s Statements should have been granted and
his custodial interrogation should have been suppressed because state police troopers failed to inform
him of the nature of the investigation prior to advising
Appellant of his Miranda rights. See Statement. Because Appellant was not informed of the nature of the
investigation prior to the interrogation, he claims his
waiver was not knowing and intelligent, and the trial
court should have suppressed the subsequent statements. Id.
When a motion to suppress is filed, the Commonwealth has the burden of establishing by a preponderance of the evidence that the challenged evidence
is admissible. Commonwealth v. Bowmaster, 101 A.3d
789, 792 (Pa. Super. 2014). When the Commonwealth
prevails before the trial court, an appellate court “may
consider only the Commonwealth’s evidence and so
much of the evidence for the defense as remains uncontradicted when read in the context of the record
as a whole.” Commonwealth v. Jackson, 62 A.3d 433,
438 (Pa. Super. 2012) (quoting Commonwealth v. Boczkowski, 846 A.2d 75, 89 (Pa. 2004).
“It is within the suppression court’s sole province
as factfinder to pass on the credibility of witnesses
and the weight to be given their testimony.” Commonwealth v. Dutrieville, 932 A.2d 240, 242 (Pa. Super.

App. 62
2007) (quoting Commonwealth v. Elmobdy, 823 A.2d
180, 183 (Pa. Super. 2003)). Furthermore, “[w]here the
record supports the factual findings of the trial court,
[the appellate court is] bound by those facts and may
reverse only if the legal conclusions drawn therefrom
are in error.” Boczkowski, 846 A.2d at 89.
At the suppression hearing held on January 4,
2017, Trooper Michael Snyder testified that at 8:30
a.m. on May 28, 2016, approximately one hour after
Appellant was taken into custody on the charge of
criminal homicide and less than one day after the homicide occurred, he and Trooper Roberts interviewed
Appellant in the interview room at the PSP Lancaster
barracks. (Notes of Testimony, Suppression Hearing
at 106-07) (hereinafter “N.T.S.H.”). Before beginning
the interview, Snyder read Appellant his Miranda
rights with the aid of a PSP Rights Warning and
Waiver Miranda form. Id. at 107; (Com. S.H. Exh. #11).
Appellant signed the form, waived his right to counsel,
and agreed to answer questions. (N.T.S.H. at 109; Com.
S.H. Exh. #11). According to Snyder, Appellant was
alert, coherent, and not intoxicated. (N.T.S.H. at 109,
126). Snyder believed Appellant knew what was happening and he was making a free and voluntary decision to speak with police. Id. at 110.13

13

During the interview, at 10:02 a.m., Appellant asked if
there was any way for him to contact an attorney. (N.T.S.H. at
142; Com. S.H. Exh. #13, 14, 16). The Commonwealth stipulated
that they would not introduce any portion of the statement taken
after 10:02 a.m. (N.T.S.H. at 143-44).

App. 63
Snyder acknowledged that Appellant was not informed of the subject matter of the interrogation
prior to the waiver of his Miranda rights. (N.T.S.H. at
126-27). However, immediately following the waiver of
his Miranda rights and before the interview began,
Snyder told Appellant “[b]asically we want to get to the
bottom of what happened last night. So, we understand
there was an altercation yesterday, an argument. And
we’re just, wanting to get to the bottom of it.” (N.T.S.H.
at 112); see also Transcript. Appellant replied, “Ok.” Id.
A police officer must administer Miranda warnings prior to custodial interrogation. Commonwealth
v. Baker, 24 A.3d 1006, 1019 (Pa. Super. 2011) (citing
Commonwealth v. Johnson, 541 A.2d 332, 336 (Pa. Super. 1988)). Custodial interrogation means “questioning initiated by law enforcement officers after a person
has been taken into custody or otherwise deprived of
his freedom of action in any significant way.” Miranda
v. Arizona, 384 U.S. 436, 444 (1966). In determining
whether an individual is in custody for purposes of
Miranda, the “ultimate inquiry is . . . whether there
[was] a ‘formal arrest or restraint on freedom of movement’ of the degree associated with a formal arrest.”
Commonwealth v. Cooley, 118 A.3d 370, 376 (Pa. 2015)
(quoting Stansbury v. California, 511 U.S. 318, 322
(1994)). Presently, Appellant was questioned by police
officers after being taken into custody.
Once a suspect is subjected to custodial interrogation, any statements made are admissible if the
Commonwealth can prove that the suspect “knowingly
and intelligently waived his privilege against self-

App. 64
incrimination. . . .” Commonwealth v. Scarborough, 421
A.2d 147, 153 (Pa. 1980). A determination of whether a
suspect has made a knowing and intelligent waiver is
based on the totality of the circumstances. Commonwealth v. Barry, 454 A.2d 985, 988 (Pa. 1982). The Commonwealth must prove by a preponderance of the
evidence that the waiver was voluntary and knowing.
Commonwealth v. Kichline, 361 A.2d 282, 290 (Pa.
1976).
The suspect must have an awareness of the general nature of the transaction giving rise to the investigation for a waiver of Miranda rights to be valid.
Commonwealth v. Green, 683 A.2d 659, 663 (Pa. Super.
1996). The Green Court stated:
[W]here a defendant has not been told of the
crime under investigation prior to his or her
waiver of rights under Miranda, and then
makes a pre-trial challenge concerning the
validity of his or her confession, the Commonwealth has the burden of proving by a preponderance of the evidence that the defendant
knew of the occasion for the interrogation.
Id. (citing Commonwealth v. Dixon, 379 A.2d 553, 556
(Pa. 1977)). This burden can be satisfied in a number
of ways, including “the establishment of circumstances
attending the interrogation, such as the prior statements of the suspect . . . or the fact that interrogation
follows hard upon the criminal episode and there is no
circumstance lending ambiguity to the direction and
purpose of the questioning.” Dixon, 379 A.2d at 556.

App. 65
In Green, the defendant murdered a police officer
in Pennsylvania and was found one week later in
Florida in possession of a stolen car. 683 A.2d at 66061, 664. The defendant was not informed he would be
asked questions about the officer’s disappearance, and
he claimed he thought he was only being questioned
about the car theft. Id. at 661. The Superior Court
found that the defendant’s Miranda waiver was knowing and intelligent, even though he was not informed
he would be questioned about the missing officer, because the interview followed hard upon the one-week
old murder and the defendant had to be aware he
would be questioned about his whereabouts and activities in the days prior to his apprehension. Id. at 66465.
In Commonwealth v. Travaglia, 467 A.2d 288 (Pa.
1983), a defendant argued that because his pre-interrogation warning form did not mention homicide, his
Miranda waiver with respect to questions about several homicides was not intelligent and had to be suppressed. Id. at 294. The Supreme Court rejected the
defendant’s claim because the homicides occurred over
the five days immediately preceding the interrogation,
the interrogation followed hard upon the criminal episode, and no ambiguity was present as to the direction
or purpose of the questioning. Id. As the Supreme
Court stated, to find the defendant “was unaware of the
general nature of the transaction giving rise to his
questioning would be tantamount to treating as fact
that which is patently hypothesis and fantasy.” Id.

App. 66
In Commonwealth v. Friedman, 602 A.2d 371 (Pa.
Super. 1992), the Superior Court concluded the defendant was aware of the possibility she would be questioned about a homicide because she was present when
she shot the victim and saw first responders attempt
to revive him. Id. at 377; see also Commonwealth v. Fox,
697 A.2d 995, 997 (Pa. Super. 1997) (a defendant only
needs to be aware of the general nature of the incident); Commonwealth v. Gotto, 452 A.2d 803, 807 (Pa.
Super. 1982) (questioning suspect about a car accident
did not violate the suspect’s rights merely because
the suspect did not know the victim had died); Commonwealth v. Weeden, 322 A.2d 343, 346 (Pa. 1974) (a
waiver was effective when the accused thought he was
discussing a robbery and was not aware a killing had
occurred during the course of the robbery).
In the present case, the Commonwealth proved
that Appellant was aware of the general nature of the
transaction giving rise to the investigation before he
waived his Miranda rights. Appellant was apprehended in close proximity to the shooting scene, and
he was interviewed by police less than one day after
the shooting occurred. Like Green, Appellant’s interview followed hard upon the one-day old murder and
he had to be aware he would be questioned about his
whereabouts and activities in the day prior to his apprehension. Moreover, as in Friedman, Appellant had
to be aware he would be questioned about the homicide
because he told police he was aware his friend’s body
was found under a tarp. See Transcript. There was no

App. 67
ambiguity about the direction and purpose of the questioning.
As the Supreme Court stated in Travaglia, to find
that Appellant was unaware of the general nature of
the transaction giving rise to his questioning “would be
tantamount to treating as fact that which is patently
hypothesis and fantasy.” 467 A.2d at 294. As such, the
trial court did not err when it denied Appellant’s motion to suppress his custodial interrogation.
IV. The Trial Court Did Not Err by Refusing to
Charge the Jury Pursuant to Appellant’s
Requested Castle Doctrine Instruction.
Appellant next argues the trial court erred by
refusing to charge the jury pursuant to his request
for a castle doctrine instruction, because Appellant
presented evidence which buttressed his claim of selfdefense and the decedent illegally entered the residence. See Statement.
“The trial court has broad discretion in phrasing
its instructions, . . . so long as the law is clearly, adequately, and accurately presented to the jury for its
consideration.” Commonwealth v. Philistin, 53 A.3d 1,
12 (Pa. 2012) (quoting Commonwealth v. Hawkins, 787
A.2d 292, 301 (Pa. 2001)); see also Commonwealth v.
Thomas, 904 A.2d 964, 970 (Pa. Super. 2006) (holding
“the trial court has wide discretion in fashioning jury
instructions”). Furthermore, “[w]hen evaluating jury
instructions, the charge must be read as a whole to
determine whether it was fair or prejudicial.” Philistin,

App. 68
53 A.3d at 12 (quoting Hawkins, 787 A.2d at 301). Only
where there is an abuse of discretion or an inaccurate
statement of the law is there reversible error in the
giving of jury instructions. Commonwealth v. Antidormi, 84 A.3d 736, 754 (Pa. Super. 2014).
“The trial court is not required to give every
charge that is requested by the parties and its refusal
to give a requested charge does not require reversal
unless the appellant was prejudiced by that refusal.”
Commonwealth v. Scott, 73 A.3d 599, 602 (Pa. Super.
2013) (quoting Commonwealth v. Brown, 911 A.2d 576,
583 (Pa. Super. 2006)); see also Thomas, 904 A.2d at
970. Jury instructions are to be fair and accurate, but
are not required to embody points a party should more
properly make in argument. Commonwealth v. Lesko,
15 A.3d 345, 397 (Pa. 2011).
In the present case, a charging conference was
held to address Appellant’s proposed standard points
for charge relating to the use of deadly force in selfdefense and the use of deadly force in self-defense under the castle doctrine. (N.T. at 745).14 The Commonwealth opposed a castle doctrine instruction when the
prosecutor stated as follows:
I don’t believe the castle doctrine applies. I
mean, by everybody – everybody who knew
what the fight was about, including the defendant, said that the fight was about drugs,
and the residents – first of all, there’s no proof
of unlawful or forceful entry at all, and that’s
14

See Pa. SSJI (Crim) 9.501 and 9.501A, respectively.

App. 69
one of the essential components. Castle Doctrine is also nullified if the residence being invaded is a place being used for illegal activity
and the conflict between the combatants relates to that illegal activity. And he said it was
a drug house, he sold drugs there, and his argument with Skip [the victim] was either
about Skip selling drugs through his mother
or about Skip stealing marijuana and selling
it without his permission. So I don’t see any
way that we could get to the Castle Doctrine.
Id. at 751. In response, Appellant’s counsel argued that
the conflict was about the victim stealing marijuana
rather than the drug trade. Id. at 751-52. Furthermore,
the victim unlawfully entered the residence after Appellant told him to leave, or the victim attempted to
unlawfully and forcefully remove Appellant from the
residence against his will. Id. at 753-55. The court declined to give the castle doctrine instruction, but did
provide the instruction regarding use of deadly force
in self-defense, which included language stating that
Appellant would have no duty to retreat and could
stand his ground unless he initiated the incident. Id.
at 772-76.
The relevant section of the castle doctrine which
the court declined to provide includes a presumption
that reads as follows:
an actor is presumed to have a reasonable
belief that deadly force is immediately necessary to protect himself against death, serious bodily injury, kidnapping or sexual

App. 70
intercourse compelled by force or threat if
both of the following conditions exist:
(i) The person against whom the force is
used is in the process of unlawfully and
forcefully entering, or has unlawfully and
forcefully entered and is present within,
a dwelling, residence or occupied vehicle;
or the person against whom the force is
used is or is attempting to unlawfully and
forcefully remove another against that
other’s will from the dwelling, residence
or occupied vehicle.
(ii) The actor knows or has reason to believe that the unlawful and forceful entry
or act is occurring or has occurred.
18 Pa.C.S.A. § 505(b)(2.1). However, this presumption
does not apply if:
(i) the person against whom the force is used
has the right to be in or is a lawful resident of
the dwelling, residence or vehicle, such as an
owner or lessee;
(ii) the person sought to be removed is a
child or grandchild or is otherwise in the lawful custody or under the lawful guardianship
of the person against whom the protective
force is used;
(iii) the actor is engaged in a criminal activity or is using the dwelling, residence or occupied vehicle to further a criminal activity;
or

App. 71
(iv) the person against whom the force is
used is a peace officer acting in the performance of his official duties and the actor using
force knew or reasonably should have known
that the person was a peace officer.
18 Pa.C.S.A. § 505(b)(2.2). “[T]he term ‘criminal activity’ means conduct which is a misdemeanor or felony,
is not justifiable under the chapter and is related to the
confrontation between an actor and the person against
whom force is used.” 18 Pa.C.S.A. § 505(d).
In Commonwealth v. Childs, 142 A.3d 823 (Pa.
2016), the question before the Supreme Court was
whether the trial court correctly found that section
505(b)(2.1) should not be applied retroactively. Id. at
826.15 Because the prosecution commenced after the
enactment of section 505(b)(2.1), the Court concluded
the defendant was entitled to a jury instruction in conformance with section 505(b)(2.1). Id. at 835. Additionally, the Supreme Court noted that section 505(b)(2.1)
creates a presumption which impacts the evidentiary
burden of a defendant seeking its protection and the
factfinder’s analysis of the evidence to determine
whether the defendant has established a castle doctrine defense. Id. at 833. However, as an evidentiary
mechanism, the presumption has no effect unless or
15

In Childs, the defendant claimed self-defense and requested
a castle doctrine jury instruction. 142 A.3d at 825-26. The Commonwealth agreed the facts of the case entitled the defendant to
a castle doctrine defense, but objected to retroactive application
because section 505(b)(2.1) did not become effective until more
than a year after the defendant stabbed the victim. Id. at 826.

App. 72
until it is implicated in the course of the trial. Id. at
832.16
As noted, the castle doctrine presumption does
not apply to an individual who is engaged in a criminal
activity or is using the dwelling, residence or occupied
vehicle to further a criminal activity. 18 Pa.C.S.A.
§ 505(b)(2.2)(iii). In the present case, the court found
the presumption did not apply because Appellant
himself admitted he was engaged in a criminal activity
or was using the dwelling to further his criminal activity of selling drugs. Appellant stated he had been selling marijuana and methamphetamine for one year
because he had no other source of income, selling drugs
was a long-term productive way to make a living, and
he allowed the victim to live at 304 Creek Road while
giving the victim drugs so the victim could resell for
profit. Appellant further admitted his occupation was
that of drug dealer, he sold drugs out of 304 Creek
Road, he had three such establishments where he paid
rent and sold drugs, this was his main location for drug
sales, and the only reason people came to 304 Creek
Road was to buy drugs.
Moreover, the confrontation between Appellant
and the victim was related to that criminal activity.
16

Pennsylvania Suggested Standard Jury Instructions for
the castle doctrine recognize that instructions on justification
“are extremely complex and can be very confusing:” Pa. SSJI
(Crim) 9.501A (Subcommittee Note). “Not all sections may be supported by the provable facts and it is intended that the court
should select only those sections necessary to the jury’s consideration.” Id.

App. 73
Whether it was directly related to Appellant’s involvement with the victim in dealing drugs or whether it
was related to the victim’s theft of Appellant’s drugs
which were intended for sale is immaterial. Either way,
the confrontation was related to criminal activity
within the house and the conduct constituted a misdemeanor or felony.
The castle doctrine presumption also does not apply unless the person against whom the force is used
is in the process of unlawfully and forcefully entering,
or has unlawfully and forcefully entered and is present
within a dwelling, or the person against whom the
force is used is or is attempting to unlawfully and
forcefully remove another against that other’s will
from the dwelling. 18 Pa.C.S.A. § 505(b)(2.1)(i). In the
present case, testimony clearly established that the
victim did not forcefully enter the residence. The victim peacefully entered the residence while Appellant
was asleep. Further, the victim was not in the process
of forcefully entering the residence when the shooting
occurred. He had already been inside the residence.
Additionally, there was no testimony to suggest the
victim was attempting to forcefully remove Appellant
from the dwelling. While Appellant did testify that the
victim poked him once in the chest while they were
inside the house, Appellant also testified that he left
the residence to yell down to Dan Umble to come up
and assist Appellant in kicking the victim off the property. After he was outside, Appellant claimed the victim reached for a gun and he shot in self-defense.

App. 74
Appellant never testified that the victim was attempting to forcefully remove him from the residence.
Nevertheless, the court did instruct the jury on legal justification for use of deadly force in self-defense.
(N.T. at 843-47). Included in that instruction, the jury
was told that Appellant was not obligated to retreat
from his own dwelling. Id. at 847. Furthermore, while
instructing the jury on voluntary manslaughter, the
court again instructed the jury that Appellant was not
obligated to retreat from his own dwelling. Id. at 842.
For these reasons, the trial court properly charged
the jury on justification for use of deadly force in selfdefense, while declining to charge on the castle doctrine instruction.
V.

The Trial Court Did Not Err by Allowing
the Commonwealth to Introduce Evidence
of Prior Drug Dealing Activity by Appellant.

Appellant further argues the trial court erred by
allowing the Commonwealth to introduce evidence of
his prior drug dealing activity because it was not relevant as to why and how the victim was shot, it was
unfairly prejudicial, and it was merely a pretext by the
Commonwealth to insert irrelevant and unfairly prejudicial bad character testimony into the trial. See
Statement.
On January 31, 2017, the Commonwealth filed a
Notice of Intention to Introduce Evidence of Other
Crimes, Wrongs or Acts Pursuant to Rule of Evidence

App. 75
404, seeking to introduce testimony showing that Appellant was operating a drug-dealing enterprise. See
Notice. The Commonwealth asserted that in the days
preceding his death, the victim “had attempted to undermine the [Appellant’s] role in the drug-dealing
enterprise and/or started a competing drug-dealing enterprise.” Id. This testimony and evidence would be offered “not to show the [Appellant’s] bad character, but
to show the res gestae of the offense at issue, and to
show the [Appellant’s] motive and intent to murder
Julius Dale.” Id. Appellant objected, claiming the assertion was speculation that would confuse the jurors,
and its probative value was outweighed by its potential prejudicial effect. See Defendant’s Memorandum
in Opposition, page 5.
The Pennsylvania Rules of Evidence permit the introduction of crimes, wrongs, or other acts as follows:
(1) Prohibited Uses. Evidence of a crime,
wrong, or other act is not admissible to prove
a person’s character in order to show that on
a particular occasion the person acted in accordance with the character.
(2) Permitted Uses. This evidence may be
admissible for another purpose, such as proving motive, opportunity, intent, preparation,
plan, knowledge, identity, absence of mistake,
or lack of accident. In a criminal case this
evidence is admissible only if the probative
value of the evidence outweighs its potential
for unfair prejudice.

App. 76
(3) Notice in a Criminal Case. In a criminal
case the prosecutor must provide reasonable
notice in advance of trial, or during trial if the
court excuses pretrial notice on good cause
shown, of the general nature of any such evidence the prosecutor intends to introduce at
trial.
Pa.R.E. 404(b).
Prior wrongs and acts are admissible when offered
for a proper evidentiary purpose. Commonwealth v.
Ardinger, 839 A.2d 1143, 1144-46 (Pa. Super. 2003). In
a criminal case, this evidence is admissible only if the
probative value of the evidence outweighs its potential for unfair prejudice. Pa.R.E. 404(b)(2). Evidence of
other crimes is not precluded merely because it prejudices the defense. Commonwealth v. Brown, 414 A.2d
70, 75 (Pa. 1980). All evidence of guilt is prejudicial to
the defense and the rules of evidence only prohibit unfair prejudice. Commonwealth v. Hairston, 84 A.3d 657,
670 (Pa. 2014).
Factors to consider in establishing similarity between the charged offense and extraneous or collateral offenses for introduction of such evidence are the
elapsed time between the crimes, the geographical
proximity of the crime scenes, and the manner in
which the crimes were committed. Commonwealth v.
Cain, 29 A.3d 3, 7 (Pa. Super. 2011). “In order for evidence of prior bad acts to be admissible as evidence
of motive, the prior bad acts ‘must give sufficient
ground to believe that the crime currently being considered grew out of or was in any way caused by the

App. 77
prior set of facts and circumstances.’ ” Commonwealth v.
Melendez-Rodriguez, 856 A.2d 1278, 1283 (Pa. Super.
2004) (quoting Commonwealth v. Reid, 811 A.2d 530,
550 (Pa. 2002)).
“Where evidence of a defendant’s prior bad acts is
admitted, the defendant is entitled to a jury instruction that the evidence is admissible only for a limited
purpose.” Commonwealth v. Solano, 129 A.3d 1156,
1178 (Pa. 2015) (citing Commonwealth v. Hutchinson,
811 A.2d 556, 561 (Pa. 2002)). When examining the
potential for undue prejudice arising from admission
of extraneous offense or collateral crimes evidence, a
cautionary jury instruction may ameliorate the prejudicial effect of the proffered evidence. Hairston, 84 A.3d
at 666 (citing Pa.R.E. 404(b) cmt; Commonwealth v.
Dillon, 925 A.2d 131, 141 (Pa. 2007)). “Exclusion is limited to evidence so prejudicial that it would inflame
the jury to make a decision based upon something
other than the legal propositions relevant to the case.”
Commonwealth v. Page, 965 A.2d 1212, 1220 (Pa. Super. 2012) (internal quotations and citation omitted).
In Commonwealth v. Collins, 70 A.3d 1245 (Pa. Super. 2013), the Superior Court held that evidence the
defendant and victim were rival drug dealers was admissible evidence of prior bad acts to establish motive
at a murder trial. Id. at 1251-52. The evidence was
highly probative of motive and the jury was instructed
they may only consider the evidence that defendant
was involved in the drug trade to establish motive.
Id. at 1252. Likewise, in Commonwealth v. Johnson,
838 A.2d 663 (Pa. 2003), evidence of the defendant’s

App. 78
involvement in drug trafficking was admissible to establish his motive at his murder trial because the testimony showed a diversion of drug sales from one
group to the other, knowledge on the part of both men
that there was competition, and the defendant’s awareness that the victim was his rival. Id. at 671-72.
Testimony that the defendant admitted to attacking the victim because the victim had ripped him off
or burnt him in prior drug transactions was admissible
to establish the defendant’s motive for the killing, and
the testimony was not unduly prejudicial merely because it was damaging to the defendant’s case. Commonwealth v. Fisher, 769 A.2d 1116, 1128 (Pa. 2001).
Evidence of prior bad acts may also be introduced to
show that motive for the killing was not self-defense.
Commonwealth v. Gelber, 594 A.2d 672, 680 (Pa. Super.
1991); see also Commonwealth v. Jones, 668 A.2d 491,
499-502 (Pa. 1995) (activities of a drug distribution organization led by the defendant was admissible in a
murder prosecution to prove motive for killing the victim because the evidence showed the drug organization enforced internal discipline with acts of violence
and in this instance resorted to murder to settle an internal dispute).
In Commonwealth v. Hicks, 156 A.3d 1114 (Pa.
2017), the Pennsylvania Supreme Court confirmed
this exception to the general inadmissibility of other
crimes evidence where there is a logical connection between the proffered prior bad acts and the underlying
charged crime. Id. at 1124-26. In Hicks, the Supreme
Court found that the trial court did not abuse its

App. 79
discretion in admitting Rule 404(b) evidence regarding other crimes, wrongs or acts by appellant where
it tended to establish the elements of first-degree
murder, the probative value of the evidence to the
Commonwealth’s largely circumstantial case clearly
outweighed any unfair prejudicial effect, and it was
properly limited by the trial court’s cautionary instructions to the jury. Id. at 1129.
Presently, the trial court permitted the Commonwealth to introduce evidence of drug dealing activities
involving the victim and Appellant because those activities were the alleged motive for the homicide, and
they would refute any suggestion of self-defense.17
This evidence was highly probative to show the res
gestae of the offense, to prove motive, and to prove intent. Moreover, the court determined the probative
value outweighed any prejudicial effect it may have on
Appellant. Additionally, the court provided an appropriate cautionary instruction to the jury. (N.T. at 13334). Therefore, the trial court properly admitted this
prior bad acts evidence.

17

Appellant conceded in his pretrial memorandum that
there was evidence which “arguably involve[s] [Appellant’s] alleged drug-dealing activity and/or operating a drug-dealing enterprise.” See Defendant’s Memorandum in Opposition, page 6.
Appellant further acknowledged in his Motion in Limine that
there was evidence the victim and Appellant were partners in the
drug trade, and Appellant accused the victim of betrayal shortly
before the killing for taking some drugs belonging to Appellant
and going behind Appellant’s back to buy drugs from another
source. See Motion in Limine, ¶¶ 47, 59-60.

App. 80
CONCLUSION
Based on the foregoing, the trial court properly
denied Appellant’s request for a trial continuance so
Appellant could obtain new counsel. The court also
properly allowed the admission of intercepted prison
visit conversations into evidence, denied Appellant’s
motion to suppress his custodial interrogation, declined to charge the jury pursuant to Appellant’s
requested castle doctrine instruction, and allowed evidence of prior drug dealing activity by Appellant.
Therefore, this appeal should be denied.
BY THE COURT:
Date:
December 20, 2017

/s/ Donald R. Totaro
DONALD R. TOTARO,
JUDGE

Copies: Travis S. Anderson, Esquire,
Assistant District Attorney
Christopher M. Tallarico,
Esquire, Counsel for Appellant

App. 81
Eff 10/3/13

page 1 of 2
SENTENCING ORDER

Dkt. No. 3420-2016 OTN
T799593-4
Defendant Lucas Allen Newnam
Offenses Crim Hon (First Degree
Murder)
G.P. ___ St. ___ Plea Agree. ___
Mod. ___
Nolo ___ N/Pros ___ ARD ___
Sentencing X
Re-Sent ___ Other ___ See 17___

Date
Judge
D.A.
Def. Atty.
Reporter
Clerk

8-9-17
Totare
Anderson
Pfursich
Hackman
Stauffer

⬜ Bench Warrant Dismissed ⬜ Bail Reinstated
⬜ Certified Court Interpreter Used ⬜ Video
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNT: 1

OFFENSE Crim Homicide F murder
in 1st degree Nol Pros ___ Merges
with ___
⬜ SIPP
Committed: Life yr ___ mo ___ days ___
hrs To ___ yr ___ mo ___ days ___
⬜ Mandatory Probation/Sect 17/ARD ___ yr ___ mo
Sentence ___ days SERVE AT LCP ___ SCI X
Intermediate Punishment Program ___
**see additional sheet
House Arrest w/EM ___
⬜ Split
Fine/Processing Fee 5000 & Cost
Sentence CONC (cc) __________________________
Restitution 3072 CONS (cs) _________
Nol Pros Cost on County _____________
Nol Pros Cost on Defendant __________
⬜ RRRI*** ___ RRRI Eligible/Not Eligible
___ RRRI Ineligibility Not Waived by DA

App. 82
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

***RRRI Sentence
⬜ Aggregate Committed: ______________ to ________
Sentence
Counts: ____________________________
⬜ RRRI
Sentence

Committed: ___ yr
To _____________

___ mo

___ days

By Order of The Court
Prepared by:

Stauffer
Clerk

/s/

[Illegible]
Judge
coc-0001

CONDITION
Impaired Driver Program/Highway Safety &
pay costs
Act 24 Treatment/DUI treatment imposed
⬜ CRN Evaluation

⬜ ARD conditions apply

Received license/acknowledgment/update on
_____
License Suspended ___ days ____ mths
Eligible for Ignition Interlock Program & pay
costs
Drug and Alcohol Eval and/or Any Treatment
treat as deemed necessary by APPS
No alcohol possession/consumption @ place of
employment/residence
Attend ____ Meetings in ___ days; obtain sponsor

App. 83
Evaluation for Special Offender Services
Psychological Evaluation/Psychiatric Evaluation. in accordance w/Determination Protocol
Comply w/Mental Health Treatment
Take All Prescription Medication
SCRAM as deemed appropriate by APPS
X

Pay restitution in equal monthly installments.
To be paid in full with in the period of supervision. Pay all other financial obligations in accordance with a payment plan established by
APPS-CEU
1st payment to be made within ___ days
Pay within ___ yr ___ mo ___ days
⬜ Wage Attachment ⬜ Maintain full time
employment
Supervision may terminate after ___ if fines,
costs and/or restitution paid in full and no
PV’s
Unsupervised Probation/Parole
Supervision transferred to ___ if deemed eligible
⬜ Credit for time served ⬜ Sentence Starts
(Subject to verification) date ___
Sentence deferred to: Date___
Time ___9am or ___8pm
Work release ___ Eligible ___ Granted
Eligible for Re-Entry Plan

App. 84
Parole w/o petition subject to behavior
____ Immediately
____ at exp of min.
Eligible for Parole (must petition)
Comply w/PBPP General Conditions of Special
Probation PaCode 37 Section 65.4
Eligible for Boot Camp
⬜ Elig. for all Education/Vocational Program
in SCI
⬜ Elig. for all programs in SCI
Eligible for New Values Program
Comply w/terms of Supervision plan as established by APPS
Community Service ___ hours
Pre-release Sex Offender Evaluation
X

DNA Sampling & pay cost
Attend retail theft school and pay costs
Banned from ________
Evaluation for Anger Management Class/
Attend if deemed necessary
Assess for Domestic Violence Intervention
Group/Attend if deemed necessary
See attached Domestic Violence Conditions
No contact with victim(s) & or victim(s) fam
Megan’s Law/Adam Walsh Applies
Sex Offender Conditions Apply

App. 85
Intermediate Punish for ____ mon/yrs
LCP for ______ days
Work Release for _______ days/months
House Arrest w/EM/GPS _____ days/months
Intensive Supervision _____ days/months
If Def does not qualify for IP, will serve
_______ days/months in LCP
Conditions: [F/A to be forfitted and to be destroyed
Money to be forfitted and applied to Restitution first,
followed by the fine & costs]
amt forfeited – $4,539
Agg. of CS Sent. _______ min ________ max
BY THE COURT:
/s/

[Illegible]
Judge
coc-0002
SENTENCING GUIDELINES WORKSHEET

COMMONWEALTH V. Lucas Newnam
A

CHARGE/

COUNT

CITATION

1

1st Degree
Murder

2
3
4
5
6

GRADE

OGS

No. 3420-2016
STD./ENH.

AGG/

RANGE

MIT

Mandatory Life

App. 86
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

B. PRIOR RECORD SCORE
I.

FELONY 1 – 4 POINT OFFENSES

MURDER & INCHOATES
VOL. MANSLAUGHTER
RAPE
KIDNAPPING
I.D.S.I.
ARSON

___ ROBBERY
___ ROB. OF MOTOR VEHICLE
___ AGG. ASSAULT (SBI)
___ DRUG DEL. DEATH
___ BURG. (HOUSE/PERSON)
___ ETHNIC INTIM. TO F1
TOTAL: ___ x 4 =

___
___
___
___
___
___
___

II. OTHER FELONY 1 OFFENSES TOTAL: ___ x 3 = ___
III. OTHER OFFENSES
FELONY 2 OFFENSES
FELONY DRUGS >= 50 GRAMS
OTHER FELONY DRUGS
FELONY 3 OFFENSES
M1 – DEATH
___
M1 – CHILDREN ___

TOTAL: ___ X 2 =
TOTAL: ___ X 3 =
TOTAL: ___ X 2 =
TOTAL: ___ x 1 =
M1 - WEAPON
M1 - DUI
TOTAL: ___ x 1 =

OTHER MISDEMEANORS III 0-1 = 0 4-6 = 2 TOTAL:
2-3 = 1 7+ = 3

___
___
___
___
___
___
___
1

PRIOR RECORD SCORE (PRS)
If Section I is greater than 8 and
OGS greater than 9:

REVOC

App. 87
If Section I and Section II plus
all Felony 2 level offenses equal
6 or more and are not Revoc:
Otherwise PRS is total of
Sections I, II, and iii.
(Maximum of 5)

RFEL
1

-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

C.

RECIDIVISM RISK REDUCTION INCENTIVE

⬜ ELIGIBLE

⬜ INAPPLICABLE
(Probation or County Prison
Sentence)

☒ INELIGIBLE (SEE ATTACHED WORKSHEET)
[Homicide – life sentence]
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

D.

MANDATORY MINIMUM SENTENCES

MANDATORY

YEARS

⬜ DUI – SEE ATTACHED WORKSHEET
⬜ SECOND STRIKE (42 PA. C.S. § 9714(A))
Prior Offense: ________________

10

⬜ THIRD STRIKE (42 PA. C.S. § 9714(B))
Prior Offenses: _______________

25

⬜ ELDERLY VICTIM (42 PA. C.S. § 9717)
Offense(s): ___________________
⬜ SEXUAL OFFENDERS (42 PA. CS. § 9718.1)
Prior Offense(s): _______________
🗹 OTHER: 1st Degree murder

Life

______________________________

_____

______________________________

_____

App. 88
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

E.

SENTENCING ENHANCEMENT

DEADLY WEAPON USED X
DEADLY WEAPON POSS. ___
(Refer to Deadly Weapon Sentencing Matrix)
DRUG DIST. (YOUTH) ___ DRUG DIST. (SCHOOL) ___
(Add 12 months to the lower limit of the standard
range and 36 months to the upper limit of the
standard range)
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

DEFENDANT: _____________________________________
DEFENSE COUNSEL: _______________________________
ASST. DIST. ATTY.:

[Illegible]

DATE: _______________
DAO-0006 Rev. 10/16
RESTITUTION SUMMARY
Defendant’s Name:
Lucas Allen Newnam
Case Number:
CP-36-CR-0003420-2016
Co-Defendant Name(s)
and Case Number(s):

Date: May 16, 2017
Report Status: Original
Restitution Advocate:
Cathy Payne
Phone Number:
717-209-3266

App. 89
This restitution is requested as part of the sentence.
The restitution is owed to:
Name

Amount
Requested

Reason

Julius Dale

$60.00

out of pocket medical

Shanna Dale

$2,200.00

funeral expenses

Victim Services $300.00
Fund

funds given to Brianna
Taylor to offset costs of
Counseling

Briana Taylor

costs for counseling

$512.00

Special Considerations:
Total Amount of Restitution Owed: $3,072.00

App. 90
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
:
:
:
Respondent
:
v.
:
LUCAS ALLEN NEWNAM, :
:
Petitioner
:
COMMONWEALTH OF
PENNSYLVANIA

No. 115 MAL 2019
Petition for Allowance
of Appeal from the
Order of the Superior
Court

ORDER
PER CURIAM
AND NOW, this 26th day of June, 2019, the Petition for Allowance of Appeal is DENIED.

